<html>
<title> - U.S. SECRET SERVICE: IDENTIFYING STEPS TO RESTORE THE PROTECTIVE AGENCY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




U.S. SECRET SERVICE: IDENTIFYING STEPS TO RESTORE THE PROTECTIVE AGENCY

=======================================================================

                                HEARING

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                            Serial No. 114-1

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                        ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-668 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                 
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                  Rachel Weaver, Deputy Staff Director
                        Tristan Leavitt, Counsel
                        Michael Howell, Counsel
                 David Rapallo, Minority Staff Director
                         Melissa Beaumont Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                                CONTENTS

                                                                   Page

                               WITNESSES

The Hon. Thomas J. Perrelli, The Hon. Mark Filip, The Hon. 
  Danielle C. Gray, The Hon. Joseph W. Hagin, U.S. Secret Service 
  Protective Mission Panel
    Joint Oral Statements........................................     5

                                APPENDIX

Executive Summary to Report from the U.S. Secret Service 
  Protective Mission Panel to the Secretary of Homeland Security.    50
Department of Homeland Security Appropriations bill, 2014........    59
Statement of Bennie G. Thompson, Ranking Member, Committee on 
  Homeland Security..............................................    63

 
U.S. SECRET SERVICE: IDENTIFYING STEPS TO RESTORE THE PROTECTIVE AGENCY

                              ----------                              


                      Thursday, February 12, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Hice, Russell, 
Carter, Grothman, Hurd, Palmer, Cummings, Maloney, Norton, 
Connolly, Kelly, Lawrence, Lieu, DeSaulnier, and Welch.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order. And without 
objection, the chair is authorized to declare a recess at any 
time.
    I am pleased to be holding this hearing today with Ranking 
Member Cummings. Reforming and restoring the United States 
Secret Service is not a partisan issue. I firmly believe that a 
united front with Mr. Cummings and I have presented have driven 
change within the agency. Together, we have sent letters to 10 
closed-door meetings and briefings with the Secret Service and 
asked for change.
    Just this morning, in a bipartisan way, we went and visited 
the Secret Service headquarters. And we appreciate their 
accommodations and the tour of the facility, the management 
facility there.
    Today, the senior leadership of the Secret Service looks 
much different than it did when we began examining the agency. 
In fact, we originally planned to have both the Acting Director 
and the Deputy Director appear before us today on a second 
panel. But with the recent announcement of the Deputy 
Director's departure from the agency, we agreed to postpone the 
agency's appearance before the committee for another day.
    We want to thank Acting Director Clancy and Secretary Jeh 
Johnson for being consistently available to us. They have been 
very accessible, and we are very appreciative of that. We also 
applaud Secretary Jeh Johnson for assembling a panel, which we 
will hear from today, to examine the Secret Service. The 
panel's report did not mince words, did not skirt the issues, 
and provided serious recommendations.
    According to the panel's findings, the Secret Service ``is 
starved for leadership'' and lacks a ``culture of 
accountability.'' The panel recommended the next Secret Service 
Director appointed by the President come from outside the 
agency. The panel's report states--and I happen to agree--that 
``at this time in the agency's history, the need for Secret 
Service experience is outweighed by what the Service needs 
today, dynamic leadership that can move the Service forward in 
the new era and drive change in the organization.'' The report 
goes on to say, ``Only a director from outside the Service, 
removed from organizational traditions and personal 
relationships, will be able to do the honest top-to-bottom 
reassessment,'' dealing with what is necessary inside the 
agency.
    Alarmingly, the panel found that no one inside the Secret 
Service has ever taken time to sit down and figure out exactly 
what it costs to protect the President. In fact, the panel 
found, ``No one has really looked how much the mission done 
right actually costs.'' This is simply unacceptable. Combined 
with other limitations, like insufficient training, antiquated 
technology, and insular attitude, these factors have all 
contributed to the recent security breaches. The fact that the 
panel made these findings is not surprising. But I will tell 
you personally it is very refreshing to have a panel take such 
a deep, serious look into the agency and provide some very 
candid results and perspective. And he did it in a very swift 
manner. And for that, we are very, very thankful.
    Over the past several years, a series of security breaches 
have raised a number of questions about the effectiveness of 
the agency. In 2011, a man fired a high-powered rifle at the 
White House while President Obama's daughter was inside the 
residence. The Secret Service was unable to confirm that shots 
had been fired at the White House until a housekeeper found 
broken glass 4 days later. This shooter eluded capture for 5 
days, traveling all the way to Pennsylvania, where he was 
eventually apprehended by State police.
    On September 19 of last year, with a partially amputated 
foot and a limp, wearing Crocs, a man was able to jump the 
White House fence. Contrary to initial reports from the Secret 
Service, this man made it all the way into the green room, 
armed with a 3-1/2 inch knife that was serrated.
    The same month, an armed security contractor was allowed on 
an elevator with the President, unbeknownst to the Secret 
Service and in violation of protocol. We still don't know where 
the breakdown was that enabled this to happen.
    Last month, a gunman fired shots near the Vice President's 
residence in Delaware. Security cameras were unable to capture 
video of the gunman. To this day, we still don't know who fired 
those shots. This was very close to active Secret Service 
agents at the residence.
    Just 2 weeks ago, a drone crashed into a tree on the White 
House lawn, highlighting a security vulnerability that we must 
shore up immediately. By examining these security breaches, we 
can find out what went wrong and we can work together to fix 
it.
    Together with Ranking Member Cummings, this committee has 
and will continue examining issues surrounding leadership, 
culture, budget, training, technology, and protocol. Congress 
needs to know why the Secret Service has one of the lowest 
levels of employee morale in all of Federal Government. We have 
some of the finest men and women serving in the Secret Service. 
These are wonderful, caring, patriotic, hardworking, talented 
people. We love these people. We thank them for their service. 
But the system, the bureaucracy, the leadership has been 
failing them, and it has to change. We have to get this right, 
and we have to get it right now.
    The panel made a number of recommendations, but the main 
priority was clear. The first step to success within the Secret 
Service is new leadership from outside the agency. I look 
forward to discussing the panel's good work today and hearing 
how recommendations were developed. And now I would like to 
recognize the ranking member, Mr. Cummings, for his Statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. I thank 
you for agreeing to hold today's hearing and for working with 
us in a bipartisan way. And I also thank you for doing 
something else, that is, I notice that you have consistently 
given our Federal employees credit for what they do. Every time 
I speak before a group of Federal employees, they say that so 
often they hear just negative things about them. And I know 
that you have said it in private, and now you are saying it in 
public about the Secret Service, that we have a phenomenal 
number of great dedicated Secret Service agents. And I really 
appreciate that and I know they do, too.
    You have sought the input from our side and our 
participation, and I believe our efforts will be more effective 
as a result of that. But more significantly, you have shown 
respect for us. We are holding today's hearings because the 
independent panel has done a thorough review of the Secret 
Service, and we want to hear directly from them before taking 
our next steps.
    To the panel, I want to thank you for what you have done. 
You have done an outstanding job in a short period of time. 
They met with more than 170 people from inside and outside the 
Secret Service. They made numerous recommendations. And now the 
upper managers of the agency have been removed. The chairman 
and I both strongly agree that the independent panel's work was 
excellent.
    We have also discussed the panel's classified report. We 
believe it was tough, it was thorough, and crucial to bringing 
about real change at the agency. Again, we thank all the 
members of the panel. But I want to make two key points today. 
First, I completely agree with the panel that the question of 
leadership is most important. Although the previous Director 
has left and top managers have been removed, the job is only 
half done. As the panel concluded, a strong group of new 
leaders must now be identified. And that responsibility rests 
with the executive branch.
    Second, I also agree with the panel that these changes 
``require strong leadership, but they will also require 
resources.'' And that is our job. That is the job of the 
Congress. Their report makes clear that the Secret Service is 
stretched too thin; the status quo in long shifts, forced 
overtime, inadequate training, and too little rest. I would 
like to read briefly from the report describing this problem. 
It says this: ``The strains are manifest throughout the agency. 
The Service has been forced to pull firearms instructors from 
its training academy and uniformed officers guarding foreign 
missions to work protective details. The attrition has caused 
alarm. 'It is all smoke and mirrors,' says a plain clothes 
agent. 'We are like a giant ship teetering on toothpicks, 
waiting to collapse,' says another. Our protective mission is 
in crisis.'' That was from a press report in 2002, more than a 
decade ago.
    Let me read another quote: ``While the threat of terrorism 
looms large over the White House complex, one of the most 
insidious threats of our national security actually comes from 
within. With the creation of the Department of Homeland 
Security and the fallout from the Hurricane Katrina disaster, 
the Secret Service, overall, has suffered much in terms of 
budget, or perhaps more appropriately, the lack thereof. ``We 
were informed last year that our budget had been cut and that 
the Secret Service was going to have to make some changes to 
cut costs and save money.'' That quote was from 2007. It was 
from a letter sent internally to the Secret Service leadership 
by a former uniformed division officer, and we have obtained a 
copy.
    Last week, the Federal Law Enforcement Officers Association 
wrote the committee saying this, ``A lack of resources and 
funding is the core reason the agency has suffered its 
newsworthy deficits. Its moments of honesty, even media 
reports, have reStated what is well-known in the Service and 
was highlighted by the protective mission review panel that the 
Secret Service has been outstretched and underfunded since the 
9/11 attacks and continues to be.''
    Let me make one last thing clear. I am not saying we should 
throw money at the problem, that more money is a silver bullet, 
that inadequate funding is an excuse for failure or any other 
similar straw-man argument.
    I agree with the independent panel that the Secret Service 
has atrophied. It needs more funding, and it is our job in 
Congress to get it to them. The panel recommended as a first 
step adding 200 officers and 85 agents. And it said many more 
may be necessary once the new management team assesses the 
agency needs. We have heard from others inside and outside the 
Secret Service that they are down by at least 500 positions. 
The DHS funding bill would start to restore some of this 
funding. But unfortunately, it is being held up by our 
Republican friends who oppose the President's actions on 
immigration.
    We have only 2 weeks left before the Department shuts down. 
If it happens, the Secret Service employees will be required to 
continue working without pay. This is no way to treat the 
Secret Service agents, officers. They should not be collateral 
damage in this political fight. The fact is that Federal 
workers across the board have been hammered over the past 4 
years. They have sacrificed nearly $140 billion as a result of 
a 3-year pay freeze and pay cuts in the form of increased 
retirement contributions for newly hired employees. They have 
endured sequestration cuts and furloughs and the elimination of 
jobs for the last 3 years. It is time to recognize that these 
actions take a toll.
    Finally, Mr. Chairman, I would like to take a moment to 
address our work here on the committee. I completely agree that 
we must reform this agency. Its mission is just too critical. I 
have the greatest admiration for the President, and the last 
thing I want is for something to happen to him or the other 
people that the Secret Service is responsible for protecting.
    So I commit to working with you to the best of my ability 
and in good faith. In return, I ask that we focus aggressively 
on the reforms that are needed, that we avoid spending valuable 
time reinvestigating issues that others have already 
investigated, and that we continue working closely together, as 
we have been, to conduct our investigation in a responsible way 
that does no harm to the agency or the mission.
    And with that I yield back.
    Chairman Chaffetz. Thank the gentleman. I will hold the 
record open for 5 legislative days for any members who would 
like to submit a written Statement.
    We will now recognize our panel of witnesses. And, first, 
let me say thank you so much for your time and dedication and 
making the effort and carving out time in your schedules to be 
here. We do appreciate that.
    The Honorable--today, we have the Honorable Mark Filip, the 
Honorable Danielle Gray, the Honorable Joseph W. Hagin, and the 
Honorable Thomas Perrelli. We do appreciate you being here. 
Pursuant to committee rules, all witnesses will be sworn before 
they testify. So if you please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Let the record reflect that all witnesses 
answered in the affirmative. And you may be seated.
    My understanding is you are going to give one joint 
Statement as opposed to four individual Statements. I am not 
sure which--you are going to give--Mr. Perrelli. OK. Thank you. 
You are now recognized.

                       WITNESS STATEMENTS

  STATEMENTS OF HON. THOMAS J. PERRELLI, HON. MARK FILIP, HON. 
      DANIELLE C. GRAY, AND THE HONORABLE JOSEPH W. HAGIN

    Mr. Perrelli. Thank you, Mr. Chairman, Ranking Member 
Cummings, and members of the committee. I am Tom Perrelli, one 
of the members of the Secret Service Protective Mission Panel. 
And the panel asked me to make brief opening remarks today.
    At the outset, we want to express, echoing both the 
chairman and the ranking member, our appreciation for the 
extraordinary work and dedication of the men and women of the 
Secret Service. They work long hours in a mission that has no 
tolerance for error, and they do so without desire for fame or 
fortune. They deserve all of our thanks and support.
    The Secretary of the Department of Homeland Security asked 
the panel to do a review of the Secret Service's protection of 
the White House following the events of September 19th, 2014. 
We did not focus solely on that event, but looked more broadly 
at concerns about the Service that had been raised by this 
committee and others.
    From October, when we were commissioned, to the issuance of 
our report on December 15th, the panel talked to dozens of 
members of the Service from all levels, as well as more than a 
hundred experts from the Federal Protective Services, local law 
enforcement, the national laboratories, and the defense and 
intelligence communities. We thought it was important to hear 
perspectives about the Service, about the protective function, 
about technology from both insides and outside the Service. We 
also reviewed thousands of pages of documents.
    Our report and recommendations were completed on December 
15th. The report contains substantial sensitive information, as 
well as classified information and recommendations. We have had 
the opportunity to brief the chairman and the ranking member 
and many staff of this and other committees in a classified 
setting, and we will tread carefully on subjects related to 
operations, tactics, and particular threats in this setting. It 
is in the interest of the United States that much of the 
Service's work be secret because they are tasked with the 
singularly important job of protecting the Commander in Chief, 
other protectees in the White House.
    But we did release an unclassified summary that lays out 
our conclusions and recommendations in a number of areas, 
including training, staffing, technology, and leadership. That 
summary is incorporated in our written testimony to this 
committee. As we described in that executive summary, the panel 
concluded that training had fallen below acceptable levels in 
no small part because personnel at the Service were stretched 
too far. We provide recommendations about increased training as 
well as increased staffing. We describe our recommendation for 
200 additional uniformed division officers and 85 additional 
special agents as a downpayment that we make now so that the 
Service can train and perform at the level that all of us 
believe is necessary.
    Many of our technology recommendations are classified, but 
I note our concern that the Service needs to be more engaged 
with Federal partners who are using or developing technologies 
that would assist the Service in protecting the White House.
    Finally, we focused a great deal of attention, as the 
chairman said, on leadership. Concluding that the Service needs 
dynamic leadership that is unafraid to make change, that 
clearly articulates the Service's mission, pursues resources 
needed to fulfill that mission, and demonstrates to the work 
force that rules will be applied evenhandedly, and that the 
best of the best will be promoted to lead the organization into 
the future. More detail in our conclusions and recommendations 
are in our testimony, and we will be happy to answer questions. 
Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. And I again appreciate all 
four of you.
    Chairman Chaffetz. I now recognize myself for 5 minutes. 
The report says, ``More resources would help but what we really 
need is leadership.'' In fact, you went on to say, ``Only a 
Director from outside, removed from the organizational 
traditions and personal relationships will be able to do the 
honest, top-to-bottom reassessment this will require.'' Maybe--
I don't know who to address this to. But, yes, Mr. Filip.
    Mr. Filip. Yes. Thank you. We gave a lot of attention to 
leadership and in that we believe that will be a critical issue 
going forward. We fully respect that the choice of the Secret 
Service Director is that of the President, and there is a 
unique relationship there in that maybe uniquely amongst 
appointments in the Federal system, that individual is 
responsible for the personal safety of the President and the 
First Family. So we respect our role in that regard. But we did 
and do think that, all things equal, it would be useful to have 
outside perspectives. The reasons for that, I think, are even 
more important than the conclusion, because they animate a lot 
of our views on a number of things.
    We think it is essential for reform that there be a full 
look at the activities of the Secret Service through the lens 
of the core priority of protecting the President and the White 
House, and that the activities and budgeting align with those 
core activities. We think that the innovation associated with 
the Secret Service's activities also be aligned with those core 
priorities. And that the new Director, whoever that is, is 
prepared to make tough choices about personnel, independent of 
any sort of old-boy's network or friendships or alignments. And 
that was part of the reason we thought, all things equal, it 
was easier for an outsider to make those assessments as opposed 
to someone who is presently with the Service.
    And we also think it is important that there be engagement 
with the broader intelligence community and a consistent set of 
disciplinary rules, independent of prior friendships or 
allegiances or experiences. And finally, also, an infusion of 
outside expertise in budgetary areas, for example, human 
resources, congressional affairs, things of that sort. So we 
thought it was more likely that that person would be an 
outsider, but obviously we respect that it is the President's 
choice. And to the extent we can be a resource, whoever the 
next Director is, we would proudly be available to try to help 
them.
    Chairman Chaffetz. Thank you. One of the questions that 
tends to float around here is whether or not we should separate 
out the investigation side. Did you look at that and what sort 
of assessment did you give that?
    Mr. Filip. We did. And our views on that are that there is 
certainly some benefits to be gained from the investigative 
mission to some extent. Now, there is a continuum in those 
investigative activities. To the extent, for example, that 
cyber investigations involve the safety of the First Family, of 
the President, that is probably going to be part of the core 
mission of the Secret Service. To the extent that cyber 
involves looking at whether a movie studio has been hacked, or 
a health insurance company, or a multinational leak, you know, 
retail-type entity, that might be further afield, and other 
parts of the Federal Government that are involved in cyber 
activities might be better positioned to handle the lead on 
that, again, all through the core prism of what the main 
mission of the Secret Service is.
    So, you know, we had a couple months to look at this. We 
don't purport to have the final answers. But we think the 
guideposts on this will be what is the core mission of the 
Secret Service, and does this particular activity, whatever it 
is, further that mission or distract from it?
    Chairman Chaffetz. Ok. One last thing I want to--and I know 
other members want to ask about this. If you put up the slide, 
please, on the training. You know, one of the things that we 
are deeply concerned about, these are the training numbers that 
we see here. And if you look at from 2008 through 2013, we were 
doing roughly special agent basic classes, eight per year, 
eight--eight, eight, eight. Then we go down to five. Then we go 
down to zero. Then we go to one. Why--why did that happen? How 
do we prevent that from happening? What is your assessment of 
that?
    Ms. Gray. Sure. I am happy----
    Chairman Chaffetz. That is great. Move that microphone. 
There we go.
    Ms. Gray. Sure. You know, training was--our analysis really 
began with training. You know, as Mr. Perrelli indicated, we 
viewed this as sort of key in animating many of the other 
decisions that the Secret Service has to think about, from 
staffing to management of overtime and the like. And as your 
chart is consistent with what we found in our findings, that 
training has fallen below acceptable levels.
    There have been a number of reasons that were against us in 
the course of our review to explain why that is so, from the 
increased activities of the Secret Service and missions, the 
number of protective visits that Secret Service members are 
staffing and the like, reductions in staffing and the forced 
overtime issues. Regardless of those different causes, I think 
we all are in agreement that the levels are unacceptably low. 
The number in our report that we emphasized, looking at Fiscal 
Year 1913 data, the average agent trained about 46 hours in 
Fiscal Year 1913. The average uniformed division officer 
trained about 25 minutes on average. And by any----
    Chairman Chaffetz. For the year?
    Ms. Gray. For the year. And so, by any account, those 
numbers are unacceptably low and we need to do better.
    Chairman Chaffetz. Did you compare that against large 
police forces or other----
    Ms. Gray. Yes. You know, we spoke to a number of large 
metropolitan police forces, and we also spoke to other Federal 
agencies that conduct protective missions that are akin to what 
the Secret Service is doing. Nothing is an exact apples-to-
apples comparison. But the training levels that we heard for 
those agencies ranged anywhere from 5 percent a year to 25 
percent a year of time spent doing training. And that type of 
training is managed in different ways. You know, some police 
forces or protective security agencies conduct sort of focused 
training at set times of years. Others integrate it more 
naturally month to month. But however it is done, the sort of 
levels that we heard from others range between 5 percent to 25 
percent, which are obviously significantly higher.
    Chairman Chaffetz. Well, thank you.
    Now I recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Perrelli, I want to go back to something that you said. 
And you said that the Secret Service needs an additional 85 
agents and 200 officers. And then you said something that I 
want you to explain. You said as a downpayment. What does that 
mean?
    Mr. Perrelli. We looked at the data provided by the Secret 
Service and tried to assess, with the current work force, based 
on what we can discern, what would it take to--how many 
additional personnel would they need to get to the training 
levels that we think are the bare necessity, which, as we 
indicated in the report, is a true fourth shift or 20 to 25 
percent of training for the President's protective detail, and 
at least 10 percent of their time training for the uniform 
division.
    Based on our--the information that we were able to obtain 
from the Service, that led to our recommendation for 
immediately the need for 200 additional uniformed division 
officers and 85 additional special agents. But I think there 
are a couple of things that cause the panel to believe that, 
once a full analysis is done by a new Director, more resources 
are going to be needed. One is, I think as the chairman said, 
there really hasn't been a true analysis of how much it takes 
to protect the President and other protectees in the White 
House. The Service's internal systems are not well-designed to 
do this.
    Mr. Hagin and I sat with a Secret Service agent and watched 
them put in their time in a DOS-based system with a green 
blinking cursor. And those systems don't reflect the actual 
hours that people worked. So that once you factor in the 
excessive amounts of overtime that we think the agents both 
anecdotally told us and that we saw ourselves, once you bring--
try to bring some of those overtime numbers down, we think that 
you will discover that more resources are needed.
    As we said in our report, we think that a new Director--a 
critical function of a new Director is to have a zero-based 
budget, start from the beginning and define the mission and 
explain to Congress and the executive branch how much it takes 
to do this. We think it is going to be more money. We think it 
is going to be more agents and more uniform divisions, but we 
also think that a new Director might decide to shed or trim 
certain missions so that it is not all new money.
    Mr. Cummings. Well, if we are able to pass the DHS budget, 
we will be able to hire the 85 agents and the 200 officers.
    But let me ask you with regard to going back to training. 
There is a lot of talk about the fourth shift. And, you know, I 
want to go back to what the chairman was asking about. You are 
saying they are getting 25 minutes--I hope the committee hears 
this--25 minutes a year. Is that what you said?
    Ms. Gray. That is for the uniformed division.
    Mr. Cummings. Twenty-five minutes of training?
    Ms. Gray. Right.
    Mr. Cummings. And what would be acceptable?
    Ms. Gray. Sir, we sort of thought about this in two ways. 
So for the PPD, the Presidential Protective Division, that is 
where the fourth shift concept originated. And so historically, 
particularly in the 1980's and 1990's, and it is our 
understanding from speaking to past Directors and past special 
agents, that the fourth shift concept was a very real concept 
in the Service. And the idea was agents would spend, you know, 
2 weeks on a daytime shift, 2 weeks on a nighttime shift, 2 
weeks on a midnight shift, and then 2 weeks in training. Now, 
that is not to say sort of all 14 of those days in that 2 weeks 
were spent training, obviously. The agent's time was managed in 
a way to provide surge capacity if they needed to support 
unexpected trips or missions. But that this concept of striving 
for roughly spending about 25 percent of the year in training 
for the agents in the PPD was very different.
    That fourth shift has never really been applicable to the 
uniform division, and it has been difficult to get sort of 
reliable historical data on this. So we don't actually have a 
very good benchmark for the uniform division. But I think what 
we do know is that this sort of average that you saw in Fiscal 
Year 1913 that we refer to the 25 minutes is unacceptably low.
    Mr. Cummings. One of the things that has concerned I am 
sure the chairman, and definitely it has concerned me--and I am 
wondering how you got into this and what your conclusions may 
have been. We have agents who felt more comfortable coming to 
the Congress and telling us about their concerns than telling 
the higher ups at the Secret Service. And I have said it many 
times. I think for this kind of organization, that is not good. 
And so, I mean, what do you all see as the--did you find that 
to be the case? I mean, well, what conclusions did you come to? 
And how do you remedy that?
    Mr. Filip. I think that goes, sir, to the culture and 
leadership attitudes of the organization going forward. Any 
robust organization has to be honest with itself and open to 
the fact that if we are going to be a continually improving 
organization, we have to accept and objectively evaluate 
criticisms about how things are operating. And so I think you 
have put your finger on something critically important. I think 
we all do. And that is something that the agency and its new 
leadership is going to have to get much better at, because no 
organization is perfect. It is not a weakness to accept the 
idea that there is problems. Face them honestly and objectively 
and work forward to improve. So you are right, that is 
something important for the new era of the Service and for the 
new Director.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. Now I recognize the gentleman 
from Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman. And you are sure 
getting off to a great start chairing this committee and 
calling all these hearings.
    Let me, first of all, say that I appreciate this panel and 
how they have come in from the outside to take a look at this. 
But I do have to tell you that--sort of no criticism of each of 
you--but I am very skeptical about some of this, and I will 
tell you why. I have been here 26 years. I have served on four 
different committees. I have read reports from all the 
committees. Every time some Federal agency messes up, the first 
thing they say, they say they are underfunded; and the second 
thing they say is their technology is out of date. And they 
have got more money than any company in the private sector and 
more expensive technology than any company in the private 
sector. Yet they always come up with those same excuses.
    In that time that I have been in Congress, when I first 
came here, the national debt was less than $3 trillion. Now, it 
is $18 trillion. The Federal budget was not anywhere close to 
what it is now. All of the Federal agencies--all of the Federal 
departments and agencies, if you looked at the last 2 or 3 or 4 
years, we have been doing a better job holding funding 
reasonably at a level rate. But if you looked over the last 20 
or 25 years, Federal spending has gone way up, and all the 
Federal law enforcement agencies have greatly expanded over 
that time, and their budgets have gone way up. I don't have the 
figures here. I came here a little unprepared for this hearing 
because I didn't know until late yesterday that we were going 
to have this hearing. And that is my fault. But I had the 
figures a few years ago that the F--5 or 6 years ago, the FBI 
had tripled in size over the years that I have been here in 
numbers of personnel and in their budgets. And I just am very 
skeptical that the Secret Service doesn't have enough funding.
    And then, second, I remember when I first came here that I 
had a hearing on the Aviation Subcommittee, and one of the main 
things was they talked about the low morale of air traffic 
controllers. And that is another thing I have heard a lot of 
times from Federal employees about their low morale. Well, I 
can tell you it seems to me the less people have to do on their 
job, the more they complain. I almost have never gotten a 
complaint from a short-order cook at a Waffle House.
    I can tell you that if these Secret Service people who have 
low morale, if they don't realize how lucky they are to have 
these jobs--and I have got nothing against anybody in the 
Secret Service. I am sure they are all nice people and all fine 
people. But they need to realize they are very lucky to have 
their jobs.
    When I first ran for Congress, I had a--they had an ad 
signed by every member--there was 300 or 400 members of the 
Knoxville Police Department. Every one except seven signed an 
ad endorsing me. I was a criminal court judge. I was considered 
very pro law enforcement. But I will tell you that our Federal 
law enforcement people are our highest paid law enforcement 
people in this country. Next are State. And our lowest paid 
people are the local law enforcement people who are out there 
fighting the real crime, the daily--the day-to-day that 
everybody wants to fight. But I will tell you that when I hear 
about low morale in the Secret Service, I think they ought to 
be ashamed, anybody who feels that way, because they are very 
lucky to have their job and the high pay that they get.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. The gentlemen yields back.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I think we are very 
fortunate to have the Secret Service take the risks they take. 
And when it comes to their pay, these are the people who have 
suffered sequester and have not received increases in pay. So 
we value them very highly, and we value your report, which is 
very thoughtful. I have been concerned, by the way, with the 
really quite shocking underfunding of the Secret Service, 
something I think that would shock the American people, because 
they always assumed that the protection for the American people 
was a first priority because it is a symbol of the United 
States itself.
    I was concerned about the physical barriers because that is 
the most obvious and commonsense way to approach this problem. 
And I have distributed to the members and to you a copy of a 
picture that was taken outside right after--right after the 
most notorious of the fence jumping incidents. And I am asking 
this question because you indicate that there are some physical 
barriers that have been added. Are you talking about these 
barriers that are normally used simply for crowd control, or 
are we talking about actual structural physical barriers?
    Mr. Hagin. That we recommend adding?
    Ms. Norton. You say that the--we understand that there have 
been some physical barriers that have been added. I am asking 
you if there have been any physical barriers added since the 
incident, since our hearing in September and since the fence 
jumping that was the basis for that hearing?
    Mr. Hagin. The bike rack that is shown in the photo you 
distributed is new since the fence jumping incident.
    Ms. Norton. Well, you know, if that is----
    Mr. Hagin. The Gonzalez incident.
    Ms. Norton. I mean, you know--by the way, I consider this 
quite outrageous. If that is--what this says to the public is--
and this is a First Amendment space. Lafayette Park is right 
there across from the White House because the Framers intended 
the White House to be a place where people could go. This is 
hardly a barrier. And, in fact, it is very ugly. And there are 
two pictures here that show what are really quite temporary--
they are not really barriers. They are not used as barriers. 
They are not meant as barriers. They are meant to be movable 
because they are crowd control. And is that all that has 
happened since the fence jumping?
    Mr. Hagin. We have not investigated just recently what, if 
anything, the----
    Ms. Norton. So as far as you know, that is all that has 
happened.
    Mr. Hagin. We are--no. We have clearly recommended that a 
permanent solution be designed and adopted as quickly as 
possible.
    Ms. Norton. And yet I appreciate that you have recommended 
that. The fence--that the fence itself, consistent with its 
historic basis, be raised. Have you put any timeframe on it? Of 
all the things that it seems to me could have happened by this 
time, it does seem to me, at least the plans for that, could 
have been--could have been made.
    Chairman Chaffetz. Will the gentlewoman yield? I will tell 
you that you can receive a classified briefing about that. Mr. 
Cummings and I participated in a meeting where the details, the 
timing was laid out. And I would--if any member would like to 
have that briefing, I would be happy to arrange another one. 
But that was not something this panel looked at, other than 
making a general recommendation. But to get a Secret Service 
briefing on what they are doing, A, was pretty impressive and, 
B, is certainly in the works.
    Ms. Norton. Well, I appreciate that, Mr. Chairman. Although 
I must say, I don't consider it very highly classified for the 
terrorists and other fence jumpers to know that there is going 
to be a fence that is going to be raised. I don't consider that 
very classified information.
    I want to say that I am--given your report, which I think 
was timely, I am disappointed that we have no information. And 
I will seek that information in the way the chairman suggests.
    The only disappointment I really had in your report was 
that there was no mention that I recall of the public space and 
of the tradition that this has been a public space and the 
barriers and the security for the President can be improved 
without, for example, a magnetometer in the street. That would 
mean that even though you are outdoors, you have to go through 
this magnetometer before you can get to where the public still 
can get, by the way. And I wonder why you did not consider the 
access of this space to the public, considering that it is one 
of the great First Amendment spaces in the Nation's Capital. It 
is not just a tourist site. There are people there every day on 
every issue trying to express their point of view.
    Mr. Perrelli. Thank you for the question. And I do--I do 
think it was of serious consideration to the panel about the 
historic nature of both the White House as well as the spaces 
around the White House. I think perhaps what is most telling is 
the absence of recommendations from this panel to do things 
like close off the park or those kinds of things that one could 
consider as appropriate security measures, but they would be 
inconsistent with the history of those spaces. So perhaps I 
think we answer your question by not having recommendations 
that would have gone the other way.
    Ms. Norton. Well, I so thank you for that, Mr. Perrelli, 
because that is what I am going to cite. I am going to say that 
the panel said that by not recommending that the public be 
excluded, it meant to say that the public should have access to 
that space as it has always had.
    Chairman Chaffetz. Thank the gentlewoman. I now recognize 
the gentleman from Arizona, Mr. Gosar, for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman. And thank you, panel, 
for the report.
    I want to quote a couple of snippets here--four snippets 
and kind of make a summary and then ask some questions for 
that, if that is OK.
    The first one: ``The Secret Service is stretched too, and 
in many cases, beyond its limits. Special agents and uniform 
division personnel protecting the White House work an 
unsustainable number of hours.''
    Second snippet: ``Rather than invest in systems to manage 
the organization more effectively and accurately predict its 
need, the Service simply adds more overtime for existing 
personnel.''
    Third snippet: It goes on to say that, ``The Secret Service 
needs more agents and officers, even beyond the levels required 
to allow for in-service training. The President and other 
protectees cannot receive the best possible protection when 
agents and officers are deployed for longer and longer hours or 
fewer and fewer days off.''
    Number 4: ``The Service has to increase the number of 
agents and, to an even greater extent, increase the size of the 
uniform division to ensure protection of the White House.''
    Now, I understand uniform division officers told the panel 
that they do not know whether they are working 1 day to the 
next or if they are even required to work overtime. The 
staffing failures within the uniform division are so bad that 
the special agents are flown in from field offices around the 
country to detail them for week-long shifts to the White House, 
supplementing the uniform division due to the dramatic losses 
in staffing it has seen. These are agents--result in special 
agents who are unfamiliar with the White House complex being in 
charge or defending it.
    So my question is: Given this report found that the special 
agents and uniform division officers work an unsustainable and 
unpredictable number of hours, what must the Service do better 
to manage that workload?
    Mr. Perrelli. I think there are a couple of things, 
Congressman. One is, as we talked about, the Service really 
hasn't had the kind of work force planning model to make 
sensible personnel decisions about how many people are needed 
and control the number of hours that people are working. As I 
think the chart that the chairman put up earlier showed, you 
have--you know, rather than continuing to hire people and 
having more officers and more agents, what ended up happening 
was you just had the existing work force working longer and 
longer hours.
    So I think we have recommended, one, a more robust work 
force planning model so that they can, I think, make good 
judgments about what is needed and how to deploy those 
resources. As we indicated, we do think they need more 
personnel, if nothing else, to ensure that the personnel that 
they have get adequate training. So I think those are, I think, 
core aspects of this. But as--you know, one of our larger 
recommendations is that I think the new leadership needs to 
take a step back and really define and then come to the 
executive branch and Congress with a clear plan that 
articulates this is what it takes to protect the White House 
and this is why we need the personnel that we think we need.
    Mr. Gosar. And I know you can't go into certain technology. 
Being a business man, I mean, technology, I mean we can track 
patients going through a system, knowing exactly where they are 
every time, every point of the day. Is that something being 
entertained in regards to a work force for the Secret Service?
    Mr. Perrelli. I think on the technology question, as I 
think the events of the September 19th indicated, there are 
real shortcomings, both on training and communications 
technology with respect to the Service's current equipment as 
well as their training on that equipment. That is something I 
think we think needs to be addressed. And all those things 
needs to be integrated together. Because I think you are right, 
Congressman, that you need to know where your personnel are if 
you are going to be able to respond to an incident.
    Mr. Gosar. And when you look at overall, you know, your 
evaluation, when you don't have systems to even evaluate, how 
hard was it even to come up with some of those recommendations? 
I mean you have to look back and look at your past to be able 
to go forward.
    Mr. Perrelli. I think we wanted to be able to provide more 
specific recommendations in certain areas. But as I think we 
laid out in the report, because the data we were working from 
on the special agent side, it is clear that they do not record 
all the hours that they work. They are working many more hours 
than show up in their personnel system. And on the uniform 
division side, the data really doesn't come from the Service's 
own systems, but comes from Federal pay records about overtime, 
which isn't necessarily--may not be the most precise way to do 
the kind of planning that is needed.
    Mr. Gosar. I am going to end it with one last question. So 
we have a Commander in Chief, the head of all our military and 
stuff. It should be the highest honor to serve in that capacity 
to protect the President. So why wouldn't the requirements be 
the same for that detail for Secret Service as like, say, the 
Navy SEALs or the Rangers? I mean, it should be that protective 
an aspect, does it not? And the chart that went up there is 
disgraceful when we see that type of application not being the 
same type of application. Do you agree?
    Mr. Perrelli. I think the panel agrees that we need the 
best of the best in this role. And that has been historically 
the culture and the belief of the Service. And I think we hope 
our recommendations will help them return to that point.
    Mr. Gosar. I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Good morning 
to you. And thank you so very much for the work that you have 
done. I did take the opportunity to read the briefing that I 
had last night, and it was quite extensive and a little bit 
scary.
    For the record, I just want to ask a question. Is this a 
part of the fence that was compromised? For the life of me, I 
can't see how you scale a fence that is skinny like this and 
this long. Will you----
    Mr. Hagin. It is the fence in the background of the photo.
    Mrs. Watson Coleman. OK.
    Mr. Hagin. It is not the fence in the foreground.
    Mrs. Watson Coleman. I know it is not--I know it is not 
this. They actually were able to scale this?
    Mr. Hagin. They were able to scale the fence that is in the 
background of the photo. The bike rack--what they call bike 
rack----
    Mrs. Watson Coleman. Yes.
    Mr. Hagin [continuing]. In the foreground was not there at 
that time.
    Mrs. Watson Coleman. It just seems to me--it is interesting 
that they could even scale that. Are any of your 
recommendations proposing additional surveillance over these 
areas that could possibly be points of access to the White 
House?
    Mr. Hagin. We feel that they should continue to modernize 
technology.
    Mrs. Watson Coleman. Interoperability of communications?
    Mr. Hagin. Interoperability. Across the board, the systems 
need to be continually improved. I am being careful here 
because--without going into sensitive areas. But we believe 
that technology plays an integral part in this multilayer 
defense of the facility, and that it must be continually 
upgraded and receive a lot of additional focus.
    Mrs. Watson Coleman. This is something that I heard in the 
5 weeks that I have been here in some briefings, that the 
personnel that were on staff at the time of the fence jumping 
incident were--and I don't know what time of the night that 
was. Can you tell me the time of night----
    Mr. Perrelli. Early evening.
    Mrs. Watson Coleman [continuing]. Or day? Early evening?
    Mr. Perrelli. Yes.
    Mrs. Watson Coleman. Was that--was the staff that was 
predominantly low seniority? Is there something to a staffing 
pattern that your seniority gives you a better staff shift? And 
is there an assurance that then or now that there are people 
who have more seniority and experience are there all the time?
    Mr. Perrelli. As I think many on the committee know, there 
was a prior report that focused on September 19th done by the 
Deputy Secretary of DHS, which focused on the very specific 
issues of that night and did find that the personnel on staff 
tended to be junior that evening. And I think this goes back 
again to this staffing and planning issues as well as the 
forced overtime issues that--you know, ensuring that the 
personnel, you have the right chain of command, you have the 
right mix of seniority and junior personnel, as well as the 
right training so that people understand and know the compound 
is something that, if the Service implements some new--some 
reforms and some new systems, they will be able to ensure in 
the future and not have that problem on any given night.
    Mrs. Watson Coleman. If you looked at their organizational 
staffing requests right now, would they be where they say they 
need to be? Because you are asking for 85 and 200. So is that--
does that recognize that their staffing is not complete right 
now? Or is that in addition--did they have it and that is in 
addition to what they have?
    Mr. Perrelli. So, yes, we were heartened to see that there 
were additional sums sought in the President's budget, and we 
are very supportive of getting the Service to the 85 and 200. I 
think others may be able to do the calculation as to whether 
the precise amounts sought are--match up with that. But it is 
our understanding that, you know, that some of the additional 
request is intended to try to reach those levels.
    Mrs. Watson Coleman. On the incident on the elevator, was 
there an explanation how someone of that nature got on the 
elevator with the President?
    Mr. Perrelli. So our panel did not look at the elevator 
incident. It wasn't part of our mandate.
    Mrs. Watson Coleman. OK. I am very supportive and very 
respectful of the Secret Service. And really, when I think of 
the Secret Service, I think of it being, you know, without 
parallel, the protection for the President and other people 
that is uncompromised and incomparable. So these number of 
incidences that have come up have been tremendously 
disappointing to me. And I just want to go on record as saying 
I don't think that we are talking about wasteful spending, and 
I don't think we are talking about asking for something that we 
don't need. And if we are going to look to where we are going 
to save money, we need to make sure that we are applying that 
to areas that don't have the kind of sensitivity.
    Protecting the President of the United States and those 
like him, that is the most important thing that we need to be 
doing as it relates to our Secret Service. And I, for one, 
support the Homeland Security and its need for a clean funding 
bill and for the Secret Service to have new leadership and all 
the things that you have identified that it needs. And I thank 
you for your report and your work.
    And I thank you, Mr. Chairman, for the opportunity to 
speak.
    Chairman Chaffetz. Thank you. I do appreciate it.
    Will now recognize the gentleman from Tennessee, Mr. 
DesJarlais, for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Just a followup on a question that Mr. Walberg had asked. 
And whoever wants to take this question, feel free. How many 
new hire training classes do the Secret Service have funding 
for each year?
    Mr. Perrelli. In general, they have tried to do eight 
classes per year. Funding has been different over different 
years, but eight classes per year has been more consistently 
the norm. And I think that showed in the early years of the 
chairman's chart.
    Mr. DesJarlais. OK. And is that what you did in the 
previous year? You did eight?
    Mr. Perrelli. I have to go back and look. I think that in 
1909, 1910, 1911, I think they were--here is the chart. So you 
see special agent classes and then uniformed division classes. 
Eight was the norm for the special agents. And then for the 
uniformed division, you know, the numbers range a bit, although 
something between 10 and 11 would be more the norm.
    Mr. DesJarlais. OK. Thank you.
    Your review found that in 2013, the Service changed its 
hiring process, and this resulted in more applicants but a less 
effective process at identifying strong candidates. In fact, 
more than half the applicants failed the routine polygraph that 
occurs during screening. Do you know who was responsible for 
this decision?
    Mr. Perrelli. We didn't identify a specific individual. I 
think our focus was--our concern was on that, that that process 
took a very long amount of time, only to have many of the 
candidates drop out. So it took a lot of resources and did not 
yield enough qualified candidates at the end. It has--that 
experience, as well as a number of other things that we found, 
are one reason why we think the Service needs to really 
professionalize its human resources function and develop hiring 
and retention strategies led by experts in that field.
    Mr. DesJarlais. OK. Any other downfalls at all that you 
didn't identify? OK. What does the Secret Service plan to do to 
fix the hiring process to better identify potential candidates?
    Mr. Perrelli. So the Service has--is changing--has already 
changed its hiring process, and is using more, it is our 
understanding, accepted service authority, and has reordered 
aspects of its process so that it is less likely to spend a lot 
of time on candidates that are going to fall out of the 
process. But, again, we think that over the long haul, having 
human resources professionals in charge of that process is 
going to be more likely to get good outcomes.
    Mr. DesJarlais. OK. You note that many of the 
recommendations in your report are not new. These 
recommendations go back to the 1964 Warren Commission, some are 
identified to the 1995 White House security review, and others 
track internal recommendations. What were those 
recommendations?
    Mr. Perrelli. Well, I think there have been many 
recommendations, certainly, over the years. But there are a 
number of things that we found in our report that, I think, 
have been seen over time. Certainly, questions about investment 
in the uniform division and the importance of giving focus to 
the uniform division and deciding its role. Those issues have 
been there. Certainly, issues related to excess overtime have 
been--and insufficient personnel have been identified over 
time. There are a number of issues that we raise in the 
classified aspect of our report that are ones that have been 
noted in the past by the Service.
    Mr. DesJarlais. Why do you think that a lot of those 
recommendations were ignored?
    Mr. Perrelli. I think that the Service itself has noted 
that it has not always done what it needed to do in terms of 
follow-through of its own recommendations. And I think--our 
hope is that, coming out of this report, that there will be a 
real opportunity to focus on these specific recommendations and 
real follow-through in tracking to make sure that they actually 
get implemented.
    Mr. DesJarlais. So how will future Secret Service leaders 
be held accountable for implementing your recommendations?
    Mr. Perrelli. Well, I certainly think that if there is a 
real process to--you know, and I am sure this committee will 
have a role in it and other committees will have a role in it, 
too, to ask the Service what has it done to implement the 
recommendations and where is that going? And I also assume that 
this and future Presidents will hold them accountable as well.
    Mr. DesJarlais. OK. And then the last question. Then how do 
you define that success or how should success be defined if you 
have implemented these recommendations properly?
    Mr. Perrelli. I think from our perspective, if we see the 
kind of cultural change and leadership change that we have 
talked about that really defines the mission, we talked a 
little bit in the report saying that if in 5 years the budget 
that the Service submits to Congress looks kind of more of the 
same or about the same with a little bit of extra money on it, 
that we will not have moved the ball forward.
    Mr. DesJarlais. Thank you so much for your answers. I yield 
back.
    Mr. Filip. One thing to add to your last question, there 
never will be a point in time where the Secret Service can 
declare success. Every day they have to get better. It has to 
be a continual improvement organization. And people have to 
have that in their DNA. So those benchmarks are signals that 
people can look to to say that improvement has been real. But 
there will never be a point in time, given the nature of the 
mission and I don't think that good leadership would ever think 
that there is, where people can say we have won, let's take a 
break, we can 2 weeks off. It is going to have to be a 
continual improvement organization, just like any successful 
football team or engineering team or military organization. 
That is what is going to take.
    Mr. DesJarlais. Thank you. I appreciate it.
    Chairman Chaffetz. Now recognize the gentlewoman from 
Michigan, Ms. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you. After today's hearing, my desire 
is that there will no longer be any legitimate doubt that the 
Secret Service needs more resources critical to the mission 
that you perform. And I join with the ranking chair and the 
chairman of recognizing how important you are and the service 
that you give. But we clearly know that there is areas of 
concern. And I feel strongly that the option of continuing the 
way we have in the past does not exist. And it will not be 
something that will be tolerated.
    I wanted to give you a quote that I would like to be 
addressed. The ranking member of the Committee on Homeland 
Security, Congressman Thompson, he Stated: ``Within the next 5 
years, the Secret Service will provide protection through two 
Presidential election cycles, two Democratic national 
conventions, two Republican national conventions, the 75th 
anniversary of the United Nations, and other National Security 
special events.'' To his point, on top of your current 
responsibilities of protecting the President and protecting 
your area of responsibility, and we know that there is some 
problems with leadership resources, we are also entering a 
period where there is going to be additional demand. My 
background is in HR. And I know that when you start hiring and 
training, there is a gap in your resources. So we have to be 
realistic about that. For us to get where we need to be, we are 
going to have to pull resources that we already have. Do you 
agree with that?
    Mr. Perrelli. I think that is right. One of the concerns 
that the panel had--and again, pointing to the charts that the 
chairman put up--when you don't bring on new classes, that is 
going to show up. Because the average Secret Service Agent 
takes 4 to 5 to 6 years in the field getting trained before 
they show up on the President's detail. That gap in hiring is 
going to be show up and be most acute in that 4 to 5 years down 
the road. So you are right that an issue with hiring that shows 
up today may not have an immediate effect----
    Mrs. Lawrence. Exactly.
    Mr. Perrelli [continuing]. But will show up in the future.
    Mrs. Lawrence. In our planning in discussing what the 
expectations are of improvement, getting additional resources, 
I see with the additional responsibilities coming up that 
training gap, there is a concern, an additional concern; do you 
agree with that concern? What is the plan to address that 
concern if you agree?
    Mr. Perrelli. We do agree with that concern. And I think 
that is why our proposal of, again, 200 additional Uniformed 
Division Officers and 85 additional special agents, we thought 
that that would allow the current work force to reach training 
levels that we thought were acceptable. It doesn't answer the 
question of what is the long-term right size of the 
organization. And, of course, there are, as occurs regularly on 
4-year cycles, the Service both draws from its investigative 
force for Presidential campaigns, but also usually receives, 
seeks and receives additional appropriations every 4 years in 
order to plan for those campaigns because the amount of travel 
which is very unpredictable increases.
    Mrs. Lawrence. So I want to be clear that our ask that we 
saw in the report will enable us to have an expectation that 
you will have the resources to address all of these concerns. 
Because if this report or your ask for resources only takes you 
up to a point to cover the existing concerns, then my concern 
is that we are going to see additional gaps. And that is my 
concern right now. And I wanted to be clear that in the 
proposal, that we don't come back later and say we still don't 
have the resources to do the job, knowing that all these 
additional things and the gap is going to be added.
    Mr. Perrelli. As an answer to that question, the proposal 
we made in terms of specific numbers was what we thought would 
address an immediate need. It was not intended to estimate how 
much the 2016 political campaign would cost or the 2020 
political campaign would cost. Nor was it an attempt to set the 
sort of long-term size of the Service. As we said in the 
report, we think that a new Director needs to do a zero-based 
budget, needs to start from the beginning and define that, and 
then come again to the executive branch and to Congress and 
justify that. But we do think that immediate infusion of 
resources is needed today, recognizing, as we said before, that 
it is going to take some period of time for those people to be 
able to be deployed at the White House.
    Chairman Chaffetz. Thank the gentlewoman. Now recognize the 
gentleman from North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
your work, for your recommendations. Ms. Gray, I want to come 
to you first. I have received a number of phone calls from 
agents, male, female, all over the country. They have actually 
gotten ahold of a Member of Congress, talked to me. Any time I 
get a blocked number, I know it is them. My concern is is that 
it sounds like there is a culture of fear within the rank and 
file. Would you agree with that assessment having talked to so 
many people?
    Ms. Gray. I think one of the things that we heard from a 
number of agents was a sense of disappointment in some of their 
leadership. And I think this goes back to the question that was 
asked earlier by Congressman Cummings about people finding 
different outlets, finding a Member of Congress or going to the 
media and other things. And so that is something that, you 
know, we hope the recommendations that we made in our report 
that get to a leadership that respects input from the rank and 
file, that provides opportunities for agents and officers to 
suggest changes within the organization, that gets to why we 
think that is very important.
    Mr. Meadows. Let me followup on that. So if we have a 
culture of fear within the Service, and I am quoting from your 
report, it says they do not have the confidence that discipline 
is imposed in a fair and consistent manner, that they feel like 
that some people get off easier or some people get punished. 
Would you agree with that assessment, Ms. Gray?
    Ms. Gray. We heard a number of agents and officers express 
disappointment in the transparency around the disciplinary 
process. And I think over time, the Service has experimented 
with different models, from having more direct supervisors 
imposing discipline, to having discipline imposed more from 
central command of the Secret Service. And I think there has 
been, and we heard a lot of it, a sense of disappointment in 
the transparency around these processes which leads to some 
concluding that discipline is not taking seriously.
    Mr. Meadows. So if we have those two issues--and there is 
essentially another quote from your report, a good-old-boy 
network in terms of the management. Would you agree with that 
assessment, that that is the feeling within the Service?
    Ms. Gray. We heard a lot of comments. I don't want to----
    Mr. Meadows. Would that be accurate--I am taking it from 
your report.
    Ms. Gray. Yes.
    Mr. Meadows. So if there is a good-old-boy spirit of fear 
within management, and we are talking about resources, I think 
both Democrats and Republicans are committed to providing the 
resources to make sure that this agency has what it needs. But 
my concern is is the budget last time, under the Director that 
is no longer with the Service, actually asked for less money, 
asked to reduce the level of experience by an average of 5 
years, actually went even further to say that they were going 
to reduce full-time equivalent people. And part of the people 
that made up that budget request got a promotion in January of 
this year. Do you find that that would create a real problem 
from a morale standpoint?
    Ms. Gray. Absolutely from a morale standpoint.
    Mr. Meadows. So there were seven people who got a promotion 
in January. What did the rank and file say about that, senior-
level executives?
    Ms. Gray. So we didn't get into discussions about 
particular individuals or particular members of the management 
team. But we did hear, overall, a sense of disappointment with 
the leadership in the agency. And our focus, rather than on 
individual performance of individual members of the management 
team, our focus was much more thinking, you know, from the sort 
of bottom up, what are the qualities that this agency needs to 
have in its management team as----
    Mr. Meadows. Let me tell you what I have heard. I have 
heard from agents that said that the 8th floor, they need to 
clean house of a lot of those folks. Have you guys heard 
similar Statements like that?
    Mr. Perrelli. One of the most telling things that I think 
we heard from, it was remarkable how consistent this was, was 
with the rank and file saying to us if what comes of this 
report is just more money, we need more resources, that is 
true, but what we really need is leadership. We need a 
different, dynamic leadership, not specified to one particular 
floor, but a clear sense from the rank and file that their 
confidence in the organization would really improve only if 
they saw substantial change at the top.
    Mr. Meadows. I am going to close with this because I made a 
promise to a couple of agents, there is this forcing of 
transferring of people across the country where they will be 
working for 12 years, 10 years, and then they are forced to 
move somewhere else. And they are encouraged in such a way that 
if they don't do it, they may lose their clearance. Is that 
something that the panel looked into?
    Mr. Perrelli. We heard concerns about the transfer 
policies, concerns, frankly, at the management level, as well 
as from the line level. I think it didn't become a big part of 
our report. But I do think that from a budget and management 
standpoint, that is one of the issues that we think a new 
Director has got to look at seriously in sort of charting the 
future course of the organization.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from California, Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Chairman Chaffetz. Ms. Gray, if you could move your 
microphone just a little more central, that would be helpful. 
Thank you.
    Mr. Lieu. Thank you, Mr. Chair. And thank you to the panel 
for your excellent report. I think many of us agree with you 
that you need better leadership. But it is awfully hard to lead 
without the appropriate resources. And I wanted to sort of give 
you the opportunity to respond to what a member very early in 
the panel had Stated about--because other law enforcement 
agencies like the FBI had an increase in funding, therefore, 
the Secret Service must also have had adequate funding. But, in 
fact, that's not true, right? Hasn't the budgets remained 
largely flat while your missions have actually increased in 
complexity?
    Mr. Perrelli. I think there has been an increase in 
missions. And I think what we looked at and talked about in our 
report and something that gave us confidence that the 285 
recommendations that we made for immediate needs was adding 85 
agents to the President's protective detail would really only 
bring it up to where it was in 2004. Now, that is not the 
budget of the entire organization. And there are folks doing 
the investigative mission. And so the organization's budget has 
increased over time. But for the Uniform Division, adding 200 
positions would not even bring it to its high-water mark. We 
thought that was important to do today. But as we said, we 
think, longer term, a new Director has got to take a serious 
look at what is the right size, what are the right missions to 
keep and maybe to shed. We think it is going to take more money 
once that plan is put together. But it is not to say that all 
of it is new money.
    Mr. Lieu. I have a question for you, the immediately prior 
member asked a question and sort of stated that folks last year 
requested a smaller budget. Was that because they were ordered 
to do so because of sequestration? They just had to come up 
with numbers to meet a certain threshold?
    Mr. Perrelli. I don't think we can speak really about what 
happened precisely in another budget process. There is no 
question that--and again, I think we talk about this in our 
report--I think we found that the Service did what perhaps 
other agencies do, which is they look at what they have, they 
think about what they might be able to get through the agency, 
the OMB, and through Congress. And they ask for a little bit 
more. And they maybe ask for a little bit more in an area that 
they think might be one that Congress is interested in funding.
    Our concern is that over time, what happened with the 
Service is that they weren't continuing to increase their 
staffing, they weren't asking, necessarily modeling and making 
decisions about how much they really needed. And at some point, 
over a number of years, what they had and what they needed 
really diverged in no small part because their missions 
continued to increase, both the protective mission and, 
frankly, the investigative mission.
    Mr. Lieu. Thank you. Representative Lawrence had read from 
Bennie Thompson's letter to us. I am going to read another part 
of the letter. He says ``years of making budget requests, 
combined with the reduction of appropriations have left the 
agency struggling to meet its multi-faceted mission and failing 
to meet our expectations.'' I assume you agree with that?
    Mr. Perrelli. Yes.
    Mr. Lieu. So, Mr. Chairman, with unanimous consent, I ask 
that Ranking Member Thompson's full Statement be entered into 
the official hearing record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lieu. So I am very pleased that you are here, that you 
issued the report. And I hope we can begin the process of 
restoring both the Secret Service, as well as protection for 
our homeland. And we can do that by, first of all, passing a 
clean DHS bill, so I yield back.
    Mr. Connolly. Will my friend yield? My friend here, would 
you yield?
    Mr. Lieu. I will yield.
    Mr. Connolly. I thank my friend. Mr. Perrelli, in response 
to Mr. Lieu about the fact that 85 more uniform personnel would 
only bring us back to the level of 2004--I, for one, am stunned 
by that. But isn't it also about turnover? I mean, part of the 
problem with the agency is not just how many uniform people we 
got, but how long they are there. They are being raided by 
other agencies. I am going to get into inadequate training in 
my questioning time. But it is also unbelievable--I mean,the 
average tenure of a uniform person is what?
    Mr. Perrelli. I don't have that figure at my fingertips. 
But turnover is high, you know, in no small part because 
Uniform Divisions have a TS/SCI clearance and a full polygraph, 
making them very attractive candidates for other law 
enforcement jobs as well. So there is no question that I think 
that turnover is high. And that is something that, as we talked 
about in our report, there is a need to make a decision, make a 
set of choices about what the Uniform Division needs to be. And 
that will drive how you think about investment in the Uniform 
Division or how you might change its mission. We proposed two 
different paths in the report, but left it to a new Director to 
make that call.
    Mr. Connolly. Thank you. And I thank my colleague.
    Chairman Chaffetz. If the gentleman will yield, I am sure 
our chairman will give them more time. I would also like to 
enter into the record and ask unanimous consent to enter the 
Department of Homeland Security appropriations bill, this was 
May 29, 2013. I want to read from this. It says the committee--
this is the Appropriation Committee--``is concerned that the 
President's budget request creates a pay shortfall and results 
in the reduction of at least 376 FTEs from the Secret Service 
in Fiscal Year 2014, and fundamentally alters the dual-mission 
requirements of the Secret Service. At the current rate of 
attrition,'' to the gentleman's point, ``by Fiscal Year 2018, 
the Secret Service work force would have been decimated by the 
loss of more than 1500 FTEs.''
    If we could put up the slide here on the funding levels, 
you will find that Congress actually appropriated more than 
what the President asked for. It does get to the core of what 
this panel found which is they don't have a zero-based 
budgeting approach. They don't necessarily have the talent in 
place to do it. When you are entering into a DOS Operating 
System, your time codes, they have no idea what these people 
are actually working. And the feedback that we both got is that 
they are terribly frustrated, they don't get adequately 
compensated, nobody understands what they are really trying to 
go through. And then they end up with 25 minutes of training 
time in an entire year. And so we share a responsibility in 
making sure--that is why I am glad we are providing this 
oversight.
    The panel has illuminated lots of these things. And I hope 
we do work in a bipartisan basis to provide the adequate 
funding, to make sure those agents and officers, we understand 
what they are going through and that we get those staffing 
levels up, because you combine the lack of staffing, the drop 
in that, the drop and reduction in training, and you have got a 
vortex of vulnerability that is totally unacceptable. With 
that, my time is more than expired. I will recognize the 
gentleman from Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman. And thank for 
leading the mission over the Secret Service this morning. It 
was good to see that. I will just comment on the State of the 
DHS bill in the Senate. What you have is a minority of Senators 
taking a position that they will not even allow that bill to be 
debated, no debate at all, unless the President is allowed to 
issue 5 million work permits and Social Security numbers to 
people who are in the country illegally, which is, of course, 
contrary to statute and something he said he could not do 
previously.
    So to me, I think that is absolutely irresponsible that you 
won't even have this debate. This is a critical constitutional 
issue. And I think the country deserves better. And so a 
``clean bill'' would not include any funding for this radical 
policy change. A clean bill would just focus on funding the 
core functions of DHS that they had traditionally done, without 
this new policy that the President unilaterally implemented. 
Let me ask you this: This is probably outside of what you guys 
were tasked with doing, but Mr. Filip, I will just ask you to 
start, how has, becausesome of the problems I think that you 
identified are great, need more leadership, better 
administrative capacities, too much insularity, people have 
commented about the low morale. So how has the transition of 
the Secret Service from Treasury to DHS, I know it has been 12 
years, 13 years now, having it be in a bigger bureaucracy with 
more red tape, to me that would exacerbate these problems. Can 
you comment on whether the Secret Service is better served 
having been in DHS?
    Mr. Filip. Thank, you, Congressman. We did not focus on 
that question, given that we just had a couple months' time and 
we thought we had an awfully big agenda just on the core safety 
issues. I suspect the agency could be improved within DHS or 
within Treasury. I am sure there is strong arguments on each 
side. And we have heard arguments exactly like you just shared 
to the pro Treasury side. And we have heard arguments to the 
pro DHS side.
    Mr. DeSantis. But where were those arguments? Were these 
line agents? The people who said that they like Treasury 
better, were they more administrators?
    Mr. Filip. Generally they were, people who brought up the 
subject were people who had been with the Secret Service for a 
long period of time and, thus, had been in both places. And 
there were a variety of views as you might expect. But for 
folks who just, you know, naturally folks who only know one 
thing, that tends to be what they think about. For folks who 
have seen different options, they have strengths and weaknesses 
as to each.
    Mr. DeSantis. Mr. Hagin, were you working in the White 
House when this change was made, if I read your bio correctly?
    Mr. Hagin. I was.
    Mr. DeSantis. OK. So can you comment on looking back or 
either in the course of your investigation or just using your 
experience, because it just seems to me that when you have more 
bureaucracy and you put these folks in an even bigger maze, we 
talk about personnel, well, the funding is much different when 
you have all these agencies in DHS than it would have been at 
Treasury. So can you provide any insight into how you see that 
issue?
    Mr. Hagin. There was a decision that all enforcement was 
leaving Treasury. So the question really was, at least in my 
involvement, was Justice Department, Homeland Security, where 
is the natural fit? When you look at the Department of Homeland 
Security, you have Coast Guard, who regularly, on a routine 
basis, supports the Secret Service quite a bit with aerial 
support and motorcades, other things like that. You have TSA, 
who has been supporting the Secret Service with magnetometers, 
especially during political campaigns when they are stretched 
very, very thin. There is a lot of support from sister agencies 
within DHS and that was looked at.
    Mr. DeSantis. But the Secret Service does get support from 
the FBI and from other agencies who are outside of Homeland 
Security, correct?
    Mr. Hagin. Not to the extent that I think you see with 
Coast Guard and TSA.
    Mr. DeSantis. So do you think that the change, to move the 
Secret Service into DHS, put the TSA as a new creation of 
that,but there was obviously a Coast Guard before then, so the 
Secret Service's interactions with the Coast Guard and the 
support that the Coast Guard has provided has actually been 
enhanced by having a Department of Homeland Security?
    Mr. Hagin. Again, the panel didn't look into that question.
    Mr. DeSantis. And you don't have a personal opinion?
    Mr. Hagin. My sense is that the Service has, the 
cooperation has been enhanced by being within the same agency.
    Mr. Perrelli. I guess I would just like to add that I think 
the panel's conclusion was, we identified a substantial number 
of issues that needed reform at the Service. For those issues, 
we didn't think moving them from one agency to another would 
address really any of the issues that we identified. And so 
while we understand that that was a serious debate, we thought 
that the focus really needed to be on solving the problems that 
we found.
    Mr. Hagin. If I could say one more thing, I think one 
interesting piece on Treasury was that--being an older guy, I 
remember well a lot of the discussion back in those days from 
within the Service about, gosh, Treasury officials, Wall Street 
guys, finance guys, they really don't understand the 
enforcement mission well.
    So over time, you have had complaints about, you know, 
wherever they are, people are going to think it is better 
somewhere else. And I believe it is correct to say that at that 
point, the Director of the Secret Service reported to either an 
Assistant Secretary or an Undersecretary of Treasury. And when 
the change was made, there was an, it was clear that the 
Director of the Secret Service would report directly to the 
Secretary of Homeland Security. So I think we addressed it 
properly in the report.
    Mr. DeSantis. Thank you.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to pick 
up on that very last point, Mr. Hagin. One of the reasons 
obviously it was originally at Treasury is because of the dual 
mission of the Secret Service. And I want to get into that. 
Your report says the paramount mission is protecting the 
President and other high-ranking national officials and allows 
no tolerance for error. We agree. But if you look at Secret 
Service's own documents, their presentation to the Congress for 
their budget, it says they carry out a unique dual mission of 
protection and investigation, meaning currency investigation.
    In their mission Statement, their own mission Statement, 
they say the mission is to ensure the security of the 
President, Vice President and families, et cetera, and protects 
the integrity of our currency, and investigates crimes against 
national financial systems committed by criminals around the 
world and cyberspace. I want to ask--we are all focused on the 
protection of our senior officials in government and 
dignitaries who may visit the United States, but they have got 
a dual mission. And the question is, is that now, frankly, a 
problem for the Secret Service? They are having trouble with 
the paramount mission you have identified. Maybe it is time to 
re-examine whether this dual mission thing makes sense any 
longer, especially since we moved them out of Treasury.
    Mr. Filip. Congressman, we looked at that issue. And we 
think that is a very serious question. We think that the 
investigative mission in some form is consistent with the 
protective mission. Some of those skills, some of those 
technologies dovetail in very nicely. That said, protecting the 
financial system of the United States is a massive endeavor if 
there aren't bounds and limits put on it. And it is likely the 
case--and we think this is important because it also flows 
through the budgeting and personnel issues--that there has to 
be a very hard, good-faith look at whether or not investigative 
functions enhance the ability to protect or distract. And so 
the issue you have identified is very real. We shared that 
concern. That is one of the most important things we think a 
new Director and a new leadership team is going to have to look 
at.
    Mr. Perrelli. And let me add on the question, one of the 
reasons why you find that the investigative mission supports 
the protective mission is because of the need for surge 
capacity or additional capacity when the President or other 
protectees travel, particularly foreign travel, as well as 
certainly during political campaigns, the arrival of the Pope 
in the United States, and those kinds of things where you need 
to be able to draw on a significant force. You also need a 
period of time, those 4 or 5 years in the field, to train and 
then ultimately come to Washington to be part of the protective 
detail. If you didn't have the investigative mission, you would 
have a very different looking organization, really focused 
solely on protection. And that, I think, is, would be a very 
substantial change with a variety of pros and cons. Ultimately, 
as a panel, we decided that we think, as Mr. Filip said, that 
the investigative mission does support that protective mission. 
But that because we believe that the protective mission is 
paramount, a new Director has to make some serious choices.
    Mr. Connolly. My time is going to run out. But I think what 
also--and I really appreciate Mr. Filip's candor--the currency 
side is a massive enterprise. And I don't know that it makes 
sense any longer to marry the two. It may have once. I agree 
there is spillover and externalities, positive externalities 
about the investigative part. But, frankly, the protective 
mission need not preclude investigations. In fact, quite the 
opposite. I, myself, have called the Secret Service on occasion 
to ask them to investigate a potential threat against a public 
official, including the President of the United States. So they 
already have that capacity, not tied necessarily to the 
currency part. And I would say the chairman, who has invited 
bipartisan cooperation here, this may be something, Mr. 
Chairman, we really need to look into, whether this continues 
to make any sense. I would yield if my time could be frozen.
    Chairman Chaffetz. Yes. Your time could certainly be 
frozen.
    Mr. Connolly. I think it was frozen at 55.
    Chairman Chaffetz. Our staff has been working together. I 
do agree with you that I think we should seriously look at 
separating out the currency, the protection of the currency, 
the investigation of that. I do think that Secret Service does 
need an investigative arm. It does go hand in glove with their 
mission.
    Mr. Connolly. Their mission.
    Chairman Chaffetz. Yes. But separating out the currency and 
giving that responsibility to the Treasury is something we 
should revisit. And we will continue to work with you and your 
staff. And we may very well jointly introduce something later.
    Mr. Connolly. Thank you. I welcome that. And I absolutely 
welcome working with you and the ranking member on that. This 
is something that has bothered me for a long time. Final 
question--because I am going to run out of time and I thank the 
chair--training, your report is very troubling and you actually 
say training has diminished to the point of being far below 
acceptable levels. That just sent a chill down my spine when I 
read it. What could go wrong with that? And I wonder if you 
could just elaborate a little bit on what can we do 
efficaciously to turn that around and get it to far above 
acceptable levels?
    Ms. Gray. Thank you for the question. And I think it is, 
you know, I want to be clear----
    Chairman Chaffetz. You have got to straighten out that mic 
and put it right there. There you go. All right.
    Ms. Gray. I think it is important to be very clear about 
what we are talking about. Both agents and the PPD and officers 
in Uniform Division, when they first go to the protective 
detail, there is hundreds of hours of training, you know, when 
they are first brought on. So really what we are talking about 
is in-service training, the kind of training to keep you sharp, 
to hone instincts, to train together in an integrated way, to 
train around new threat scenarios. And for that, I think in 
terms of the what we can do about it, I think one of the things 
that we strive to do in our report was to set a benchmark, to 
have a standard that leaders could be measured against in terms 
of whether or not they were seeking to fulfill that standard 
and have a staffing model to support actually implementation of 
that.
    So we set two benchmarks. We set a return to the 4th shift 
concept for the PPD. And we took a look at large metropolitan 
police forces, similar Federal agencies with a protective 
mission, their training levels are between 5 and 25 percent. 
And we thought, as a panel, you know, at least 10 percent for 
the Uniform Division, which, if you think about it, is about 2 
days a month, is something that we should want to aspire to. So 
we think setting benchmarks will go a long way.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you to the 
panel. Your report noted that there was a common critique that 
you heard, that the service was too insular. What are the areas 
of greatest concern in which the agency needs to improve?
    Mr. Filip. I think these go to the leadership question, 
Congressman. The insularity goes, I think, at least in 
substantial part, to the idea of kind of an old boy's network 
for want of a better term, that discipline is not always 
transparent, or perhaps even uniform, based on whether or not 
people have served together in the past or have familiarity 
with each other. The insularity also goes to the point of 
reaching out to a broader intelligence community and law 
enforcement community to gain insights about new technologies 
and new techniques that are available, perhaps even going so 
far as to reach out to sister agencies at friendly allied 
nations, you know, whether it be the Israelis or the British 
Secret Service equivalents, to find out what techniques they 
have found helpful in real-threat environments. In the past, 
that had been done. And it seemed as though that sort of 
coordination with other folks who might have good insights and 
experts had diminished.
    So those were the main sort of insularities I think that we 
were looking at. Part of it also was infusing in outside 
expertise in areas like human resources, budgeting, technology, 
congressional relations, that leadership might come in those 
areas that is more effective than folks trained in a protective 
or law enforcement background.
    Mr. Walberg. Who are the main individuals or groups that 
are bringing these concerns to you? Were these coming from 
agents on the line?
    Mr. Filip. Yes, sir. But we also would hear admissions to 
that effect, Statements to that effect from senior people. It 
was a uniform, there were a lot of voices to that effect.
    Mr. Walberg. You noted hearing that Secret Service would 
send low-level representatives with little authority to 
interagency meetings and that they were, in your words, 
hamstrung from deriving benefits from their participation. Who 
at the Service was responsible for this practice? And I guess 
the other question is why?
    Mr. Filip. I think it would be sort of deputy-level folks 
within their subject matter areas would select the people who 
would go to those meetings. Why? I think it was just a lack of 
priority being placed on or maybe a failure to appreciate the 
benefits that could come from being in dialogs with other parts 
of law enforcement and intelligence community in the U.S.
    Mr. Walberg. And that is a problem with insularity then?
    Mr. Filip. Yes, sir.
    Mr. Walberg. Didn't want to branch out and find anything 
different than what was normal?
    Mr. Filip. I think, sir, in its most benign form, it was 
that folks are proud of their own organization. But pride can 
be a virtue. And pride can be a failing too. There needs to be 
humility and an appreciation that you can gain a lot from other 
folks too.
    Mr. Walberg. How far down the chain of command does this 
extend, that attitude extend?
    Mr. Filip. I think it is probably not uniform with each and 
every person. It certainly is something that is organization, 
the organization has had for some time. I think there is some 
people at senior levels who are more open to outside 
perspectives, some people less, some people at junior levels 
with the same dynamic. It certainly is something that is 
prevalent enough that a new Director and a new leadership team 
has to, we think, respectfully, pay serious attention to.
    Mr. Walberg. Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentlewoman from New York, Ms. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, and ranking member 
for holding this hearing on really a critical issue, the 
security of the leaders of our country. It is incredibly 
important. And I thank all the panelists for being here today 
and all your hard work. You would not have to be a security or 
a law enforcement professional to recognize that there are some 
very serious problems with your department, with the United 
States Secret Service. You would just have to read a newspaper 
or have some common sense to see that you are an agency in deep 
trouble. The repeated headlines about tawdry scandals with 
prostitutes, and Secret Service professionals, the horrendous 
lapses of judgment and high-profile breaches of security, 
including breaking into the President of the United States' 
home.
    All these examples make it clear that something is 
seriously wrong in the culture and in the management of the 
Secret Service. In any organization, it is not fair to assume 
that the bad behavior of a few is representative of the many. 
But we also understand that this is not just any organization, 
this is the United States Secret Service. It used to be one of 
the most respected agencies in our government. And you are 
tasked with some of the most critical law enforcement missions 
in our country. Among them, and first and foremost, is 
protecting the President of the United States, the Commander in 
Chief, and the leader of the free world. There is no margin for 
error in your job. There is no slack to be granted. And there 
is absolutely no possibilities for do-overs.
    So far more important today than just fixing the blame and 
talking about all of these reports is fixing the problem. Now, 
the question that I hear from my constituents is how in the 
world did someone jump over the fence, break into the White 
House, roam around the home where our President sleeps and roam 
around rooms where his children play, how in the world did that 
happen? I don't want to know specifics. I just want to know in 
an overall Statement, can we go to bed tonight and feel that 
the Secret Service is going to protect the President of the 
United States? I am going to ask Ms. Gray.
    Ms. Gray. Thank you for the question. I think our panel 
believes that the Secret Service is doing a job protecting the 
President, and the President ultimately is safe. There is a lot 
of multiple layers around the President and around his personal 
protection. But I think to your question about sort of how 
could something like that happen that you hear from your 
constituents and the like, I think the report by Deputy 
Secretary Mayorkas detailed that a series of lapses and also 
failures in training and communications led to that event. And 
that is something that, you know, we hope our recommendations 
going forward can try to address.
    Mrs. Maloney. Well, how can we make sure that there is no 
longer failures in communication and there are no longer lapses 
in protecting--I find that the people are concerned about it. 
Because the No. 1 goal of government is to protect our citizens 
and to protect our population. And we created the Homeland 
Security, we took many strong steps in a bipartisan way after 
9/11 to better protect our citizens. So when our citizens see 
the President's home broken into, it is very terrifying to them 
because they put themselves in the same situation of being 
afraid of someone breaking into their home. And I just find it 
startling that this ever happened in the first place. And I 
also find your recommendation calling for a new Director from 
outside of the Secret Service, I have never heard of an agency 
basically say we can't handle it ourselves, we have got to have 
someone from the outside come in and tell us how to handle it.
    Can you explain why you made this recommendation and why do 
you think it is going to work and why do you think that someone 
with the ability--it is very difficult to get in the Secret 
Service and the training and everything else that you have, 
that someone from the Service cannot run the Service. And do 
you now have a separate agency that is looking at protecting 
the President and the Vice President As they move around in 
their homes? Mrs. Gray again, and then anyone else who wants to 
come in.
    Ms. Gray. Sure. I mean, I think our assessment of the need 
for an outside Director was that we thought that many of the 
challenges that will actually lead to addressing some of these 
issues in the future uniquely, at this moment in time, could 
benefit from outside leadership. One of the things we say in 
our report obviously is that that may not have always been true 
throughout the time during the Secret Service. But right now, 
given the need to have in place a staffing model so that they 
can make decisions that reflect actually the mission, given 
some of the prioritization issues that we have been talking 
about, how do you make sure that protection of the White House 
compound and the President are a priority every year and that, 
you know, the mission creep with other areas is not infecting 
the organization. All of those challenges we thought could 
benefit from outside leadership at this time.
    Chairman Chaffetz. Thank the gentlewoman. Now recognize the 
gentleman from North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, panel, for 
being here today. I want to talk about what appears to be the 
No. 1 glaring concern with the fence jumper. But I also want to 
talk about that from a budget perspective. So let me make sure 
that I am clear on this. In your opinion, the fence breach was 
caused because of insufficient training, is that correct?
    Mr. Perrelli. I think we think that--and this, I think, is 
detailed in Deputy Secretary Mayorkas' report--that training 
and communications issues were a substantial component of that, 
of allowing that individual to get as far as he did. We make a 
number of recommendations, both in our unclassified and 
classified portions of our report, that I think would address 
some of those issues. And we also think that increasing--
changing and increasing the height of the fence would decrease 
the ability of somebody to get over the fence at all, much less 
get as far as that individual did.
    Mr. Walker. Sure. But a couple times this morning I have 
heard it try to be tied into some kind of budgetary issue. My 
question would be if one of you guys saw someone jump the 
fence, would you know what to do?
    Mr. Perrelli. There is no question that, and I think the 
Service has, if you talk to people, rank and file, across the 
Service, they would have said, I think many individuals would 
say yes, I know what I would have done. What we did find, 
though, is there was disagreement about that. In other words, 
there were certainly individuals in the Service who thought 
lethal force, they would have immediately deployed lethal 
force, others who said lethal force was not appropriate, many 
who said putting hands on and actually tackling the person was 
the right approach. And what the concern that that led to for 
us was that there was a lack of training, so that you would 
know in the instant that you needed to react what you were 
supposed to do.
    Mr. Walker. Sure. But we cannot correlate that to being a 
budgetary issue, is that fair to say? I mean, we just recently 
passed a human trafficking bill that would train tens of 
thousands of agents to spot out some of the perpetrators or the 
victims. There is no additional funding for it. So sometimes 
training, to me, has no boundary from the sense it is connected 
with funding, is that a fair Statement in your report?
    Mr. Perrelli. I think where budget and training go together 
is the concern that because of--training has really disappeared 
because of, or at least in no small part because of, but not 
solely because of, the excess overtime that individuals are 
working. They have canceled in-service trainings, particularly 
for the Uniform Division, now that training is to an 
unacceptable level. And those folks are working very, very long 
hours. So there is an aspect of this I think that relates to 
resources. As I think we tried to make clear in the report, we 
do think that, long term, a new Director is going to have to 
define the priorities and the mission in a way that the Service 
hasn't to date.
    I think the chairman put up a slide about funding. It has 
not been a question of Congress not appropriating funds, but 
the Service not coming to Congress and saying what it needed, 
as well as making some of the hard choices about other aspects 
of the mission.
    Mr. Walker. Granted. But, Ms. Gray, I believe you even used 
the term part of the responsibility was to keep sharp and to 
hone instincts. I don't see where that necessarily ties into 
more funding. I believe that training can be done without 
additional resources. Is that part of your report? Do you think 
that is fair?
    Mr. Perrelli. I think our view is that, that the reason why 
training has reduced so significantly is because the work force 
is so overstretched. So we do think that you need more 
personnel at the White House, both in the Uniform Division and 
special agent population. And I do think that means more 
resources in the near term.
    Mr. Walker. Fair enough. Let me use the last bit of my time 
to talk about budget transparency. Were you surprised that no 
one in the Secret Service could answer some of the budgetary 
questions that you proposed?
    Mr. Perrelli. We were concerned about that. And, as we 
indicated, the Service needs to professionalize those aspects 
of the Service so that they can justify, within the 
administration as well as here, the needs that they have. 
Because we did the best that we could to identify what we 
thought was a reasonable number of an increase that they needed 
in the immediate term. So we were, and I think our word was we 
were hamstrung in making a more definitive----
    Mr. Walker. Maybe could we say that was one of your larger, 
if not largest, surprises, that there was no go-to person when 
you had budgetary questions?
    Mr. Perrelli. We were certainly disappointed that we could 
not get a number of questions answered.
    Mr. Walker. And is that part of the reason you are 
recommending a Director from the outside, someone who would 
bring a completely different perspective, including not just 
the Secret Service side, the protection side, but also the 
budgetary side?
    Mr. Perrelli. We do think they need real experts in that 
area and that promoting from the agent population is not 
probably the way to go there.
    Mr. Walker. Thank you, Mr. Chairman. Yield back.
    Chairman Chaffetz. Thank the gentleman. Recognize Mr. Hice 
from Georgia for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. And thank you to the 
panel for showing up. One question that I had that I am still, 
frankly, trying to wrap my mind around in relation to what you 
were just referring to, the panel found that the Secret Service 
does not have in place a system budgetarily in order to even 
make the most prudent budget decisions. And yet, at the same 
time, we are saying we need to provide more resources. So I am 
trying to wrap my mind around this whole understanding of how 
can we say conclusively that more resources are needed when we 
are, likewise, admitting that they don't have a system of 
tracking the budget that they have, they don't even know how to 
manage and spend the money that they are already receiving. So 
can you just clarify that?
    Mr. Perrelli. Certainly. So it is not so much about 
tracking the money that they receive is the issue, but it is a 
work force and staffing model to make decisions about how do 
deploy the resources that they have. Again, it is more in the 
planning side where we found and the retention, the capturing 
of data side that we found deficiencies. I think on this 
question of more resources, for us, training really drove 
resources. If we wanted to, you know, we were unable, I think, 
to do the analysis to say, if we want to bring everyone down to 
a 55-hour week, how would do you it? What we were able to look 
at was if we wanted to bring everyone up to an appropriate 
level of training, pursuant to the benchmarks that Ms. Gray 
talked about earlier, how much would it take? That analysis we 
were able to do. And that is the basis for the 200 additional 
Uniform Division and 85 additional special agents.
    Mr. Hice. OK. Thank you. And just going on on the training 
issue, I think all of us are stunned and appalled by the fact 
that something as simple as an incident, someone jumping over 
the fence, that so many people didn't know what to do. That 
seems like it is 101-type information that everyone agent ought 
to know. But also the panel looked into training conditions 
that replicate the environment in which these agents are 
actually operating. And there was evidently during that fence-
jumping incident, there was one team that actually reported 
that they were not even aware of the layout inside the White 
House. This is amazing. So just respond to that as well. What 
plan is there in the training aspect, if any, to not only 
provide more training, but specific training as to where these 
agencies are operating?
    Ms. Gray. Thank you for the question. Our report attempted 
to address what I would call the sort of quality of training 
issues that you are raising in sort of two different ways. One 
is more integrated training. So one of the things that Deputy 
Secretary Mayorkas' report found is that some of the Uniform 
Division officers were not fully aware of the roles that others 
officers were playing. And so those standing at post at the 
door, those on the ERT team, those in the K-9 unit, the 
different roles and responsibilities in terms of intercepting 
that person. And so that, in part, reflects a lack of 
sufficient integrated training, training together as teams. So 
that is one recommendation that goes to that.
    On the familiarization with the White House, as you noted, 
there was indication in Deputy Secretary Mayorkas' report that 
members of the Secret Service that were responding to the 
incident on the 19th were not familiar with the inside layout 
of the White House. So one of our recommendations, we don't 
think this should be very hard to do, but one of our 
recommendations is that the Service invest in a replica so that 
you can actually have training in a real-time environment.
    Mr. Hice. OK. Thank you. I want to go to Mr. Filip. You had 
mentioned a while ago about the human resources issue and the 
fact that you believe that there needs to be a human resource 
director from the outside coming in. I am assuming from that 
that the method up to this point has been agents from within 
who have been overseeing human resources, is that true?
    Mr. Filip. Yes, sir. Historically, the agents have always 
occupied senior leadership positions in a number of areas that 
perhaps their background and experience doesn't best prepare 
them to perform. In the FBI, for example, under Director 
Mueller, benefited substantially--we think there is a broad 
consensus on that--by bringing in folks from the outside, who 
have spent their careers in those areas, perhaps outside in the 
private industry or other areas, in coming to lead those. And 
we think that is something that would be beneficial here.
    Mr. Hice. OK. And one final question, I understand that 
there has been changes over the last several years in the 
hiring process, among other things, online hiring, that type of 
thing. Who has been pushing these changes? Where has this been 
coming from?
    Mr. Filip. Sir, I don't think we got a keen sense in the 
time we were looking at where those changes were coming from. 
It seems as though people sincerely were trying to find methods 
that would be better. And they did not work. And there needs to 
be--that is part of the reason why we think bringing in 
somebody from the outside who does this for a living is going 
to be able to improve things. And, if I could, sir, just please 
answer one question that a number of folks have asked because I 
don't want to have us fighting people on this.
    The events of the fence jumper were a failure. OK. We are 
not part of the Secret Service. But the Secret Service does not 
dispute that those events were a failure. And at some level, 
you can train for 100 years, maybe things would have been 
different. Under any scenario, they were a failure. And so we 
are not trying to say that events with the fence jumper, there 
should never be a situation, period, where anybody gets in the 
front door of the White House with a knife or otherwise. And I 
just don't want to leave the impression that we have any 
ambiguity about that or, frankly, that people, I think the 
Secret Service has acknowledged that too. And it obviously can 
never happen again.
    Mr. Hice. Thank you.
    Chairman Chaffetz. Thank the gentleman. Recognize the 
gentleman from Oklahoma, Mr. Russell, for 5 minutes.
    Mr. Russell. I appreciate all the hard work that the panel 
has done. And I think it is a tough task that you have dug into 
in a great bipartisan fashion. My questions will focus 
specifically on the training aspects, because I think that is 
what is crucial ultimately in getting the job done. If the 
personnel currently are too deployed to train, how will the 
additional uniformed and other agents be trained?
    Ms. Gray. I think this is where our staffing 
recommendations and our training recommendations interlink. I 
think part of what we were attempting to do is to sort of start 
with asking the question what would be the ideal training 
benchmarks that we would want to achieve and try to back out of 
that staffing numbers so you could achieve that without having 
people do, without having to navigate around the forced 
overtime and other staffing issues. So I think that is the 
answer to that.
    Mr. Russell. So with the increase in the additional agents, 
obviously you are going to have to absorb those to be able to 
train them?
    Ms. Gray. Right.
    Mr. Russell. It is almost counterproductive because they 
are already too deployed, you are going to put a bunch of new 
agents, make the recommendation that that happens and then--and 
that is the focus of the question is how would that be 
absorbed?
    Mr. Perrelli. I think probably the way this is likely to 
happen, obviously we would like the new leadership team to make 
very specific choices about this, but you would bring in an 
additional special agent population. Those individuals would 
come on board. They would go out to the field and begin their 
sort of 4-to 5-year training period that they get before they 
would come to the President's detail. And then you would bring 
individuals in from the field to increase the levels at the 
White House for the special agents.
    Mr. Russell. Thank you. I think all of us are just taken 
aback by the 25 minutes of average training. As a former combat 
infantryman, that is just astounding when you are entrusted 
with so many things, where you may have to protect somebody's 
life. That just seems totally inadequate. Did any of that 25 
minutes of training include sustaining the accurate employment 
of firearms?
    Ms. Gray. So the data that we were given from the Secret 
Service did not include the time spent on firearms or 
qualifications and the like. So the numbers that we provided in 
our report, 42 hours of training in Fiscal Year 1913 for PPD 
and 25 minutes on average for the Uniform Division, that was 
apart from firearms or qualifications.
    Mr. Russell. So what specifically then was the training 
focused on? I mean, if you had other aspects of training, here 
we are quoting 25 minutes but, you know, obviously firearms 
training or maybe drills training or protecting people that 
have been injured or whatever it might be, what aspects of 
training were you looking at?
    Ms. Gray. So the data that we received gave us the 
aggregate training data. And I think we can talk about where, 
you know, I think we briefed on some of the different training 
protocols in the classified setting. And we want to be careful 
about that here.
    Mr. Russell. Sure.
    Ms. Gray. But, I think, for example, just to give an 
example, one of the things in the Mayorkas report talked about 
lack of training around communications equipment and how to 
properly use communications equipment. And that is like an 
appropriate subject of training. And I think there is 
indication that there has not been a lot of that in recent 
years.
    Mr. Russell. And then were there any training 
recommendations that you made focused on proper reduction of 
threats and uniform rules of engagement?
    Mr. Perrelli. We looked at this question of the use of 
force policy, for example, which had been discussed quite a bit 
in the Mayorkas report. I think what we found was very 
different views, notwithstanding the same words on the page and 
the same, very different views about what force was appropriate 
in various circumstances. And I think we felt that both that 
additional training on that was needed, but also that they 
needed integrated training so that each individual knew what 
their role was, who is the person who is the last line of 
defense at the door, who is the person who is doing the 
tackling, all of those, you know, how do you work in an 
environment where a K-9 has been released, those kinds of 
things we felt, and again, I think the events of September 19th 
indicated, needed to be addressed.
    Mr. Filip. Mr. Congressman, there are parts of the 
classified report that speak to threat reduction as well.
    Mr. Russell. I appreciate that. And I do appreciate the 
sensitivity on that. And I guess I was, my question was 
focused, did you recommend a standard uniform rules of 
engagement?
    Mr. Filip. The rule that the Secret Service uses comes from 
Supreme Court law about dealing with appropriate use of force 
that is pretty uniform whether we were looking at the 
metropolitan police in a big city or the Secret Service or the 
FBI or whatnot. It is not so much there is ambiguity about the 
policy, it is the execution of it, sir.
    Mr. Russell. I see. That answers it. Thank you. I yield 
back my time.
    Chairman Chaffetz. I thank the gentlemen. And I think this 
is a big area that needs to continue to be looked at. Because 
the use of force, lethal if necessary, has got to be well 
understood by every single person. And you can never, ever make 
a mistake. In this day and age of ISIL and other terrorists, 
you don't know what is underneath them. I think it is terribly 
unfair to assume somebody doesn't have anything underneath 
their clothing. In this day and age, we have to assume that 
that person might have an improvised explosive device or some 
sort of chemical agent or whatnot. And we should deal with it 
appropriately. That brings up a good point.
    The gentleman from Georgia, Mr. Carter, is recognized for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
for being here. And thank you for what you do. And this is 
helping us out tremendously. So we appreciate your efforts in 
this. I want to concentrate just for a couple minutes on 
staffing because I am concerned here. Can you tell me how we 
are doing as far as new recruits go and are we getting new 
recruits in?
    Mr. Perrelli. Again, I refer back to the chairman's chart 
at the outset, that there was certainly a period of time where 
the Service's hiring process was not functioning as intended, 
whether for budgetary or other reasons. Because problems with 
the hiring process, they were not getting classes through. Our 
sense is that that has improved. They are using different 
hiring practices again. And we think that is improving. But as 
Mr. Filip indicated, we continue to believe that having--some 
of the mistakes that have been made in the past related to not 
having a professionalized human resources function, or led by 
professionals in that area. And we think that is an important 
change going forward.
    Mr. Carter. So you are acknowledging, then, that there has 
been a decrease in the number of new hires of people coming in?
    Mr. Perrelli. There was a gap, a number--2 or 3 years there 
where they were not bringing classes through at the levels that 
they needed to sustain the work force.
    Mr. Carter. But your assertion is that that was not caused 
by a lack of interest of applicants, but instead by the hiring 
process itself?
    Mr. Perrelli. I think there were budgetary issues. And 
then--but it was also the hiring process. It wasn't that they 
lacked for applicants. It was that they struggled to get them 
through the process in a timely way. You would have people 
start the process, go through the process for up to a year, and 
then fall out of the process either because they failed a 
polygraph or for other reasons.
    Mr. Carter. OK. All right. Hang with me real quick here. 
What about the force as it is today? Where are we at with our 
labor pool? Are we--what percentage will we see retiring in the 
next 5 to 10 or be eligible to retire? I am worried about the 
fact that we are going to get into a situation where we don't 
have enough Secret Service agents.
    Mr. Perrelli. And I think our concern was, again, looking 
at that gap that the--really looking 3 or 4 years out from now 
where the individuals who, in an ordinary year, would have been 
hired and weren't, would be starting their rotation in 
Washington as part of the President or the Vice President's 
protective detail. So I think we think a new Director needs to 
start planning now for that. And that also includes, as you 
look forward, 2020 is going to be a year with the 75th 
anniversary of the United Nations, a Presidential campaign. 
That is going to be a year where the Service is going to be 
quite busy. And they need to make sure that they have the 
personnel ready to go and trained for that period. And that 
takes preparation now.
    Mr. Carter. Would you say that the White House recognizes 
this? Because it is my understanding that the last budgets that 
had been submitted by the White House that Congress has 
actually put more money in there in order to address this 
scenario.
    Mr. Perrelli. And I think, as we talked about in our 
report, I think the issue that we really saw was the Service 
having difficulty in defining what it needed and seeking 
resources for that. So it wasn't so much that--it wasn't that 
Congress was saying, you know, we are not going to provide the 
President's budget. It was that, as this was working up through 
the process, the Service was approaching its budget by saying, 
``Here is how much we have. Maybe we ask for a little bit 
more,'' rather than saying, ``Here is what the mission is, here 
is what we need to achieve it,'' and pursuing those resources.
    Mr. Carter. Well, for myself--and I suspect and I hope for 
you as well--one of the most disappointing things that occurred 
to me in this report was the low morale. I mean, how did that 
come about? Did these guys not watch these movies? I mean, man, 
they get you all excited about being a Secret Service agent. 
What happened?
    Mr. Perrelli. Well, you know, one, these folks are working 
extremely long hours. And as I think we--in our leadership 
recommendations, we talk about the lack of confidence in the 
work force about disciplinary and other decisions, which I 
think, you know, has an impact there.
    You know, if you are--you know, we met with uniform 
division sergeants just shortly before Thanksgiving. And for 
them, they didn't know whether they were working on--and they 
didn't know if they would be--they didn't think they would know 
whether they were working on Thanksgiving until Thanksgiving 
morning. Those kinds of things, plus long hours of forced 
overtime, they take a toll on the work force.
    Mr. Carter. Listen, that sounds--you know, I am a business 
owner. That sounds like a management problem. That needs to be 
addressed immediately. Well, thank you again for everything you 
have done. We appreciate your efforts.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    Chairman Chaffetz. Thank you. I appreciate the gentleman. I 
now recognize the gentleman from South Carolina, Mr. Gowdy, for 
5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I want to thank you for 
your consistently hard work on this issue while you have been 
the chairman and even before that when you were on the 
committee.
    I will throw this question to any of the four panelists who 
can answer it. Explain to me, picking up on Mr. Connolly's 
question, how working counterfeit currency prepares you for 
personal protection.
    Mr. Hagin. When a new agent comes out of Beltsville out of 
basic training, they are assigned to a field office for 4 to 5 
years. During that assignment, they have, you know, various 
investigative roles, but they are also serving as manpower for 
protective stops. So if the President, the Vice President, and 
any of the protectees come into your region, you are assigned 
from your investigative role to be part of the manpower squad, 
which is how they start to become familiar with protective 
operations.
    Mr. Gowdy. Well, I get how practicing protection details 
helps you with protection details. I am trying to figure out 
how investigating someone using an inkjet printer to print 
counterfeit percent100 bills prepares you for that. I am trying 
to understand how those two missions are combined.
    Mr. Hagin. Well, they develop law enforcement skills. They 
develop the--you know, the sense of when someone is lying, when 
someone is to be----
    Mr. Gowdy. Which leads to this question: Your applicant 
pool, do you draw heavily from those women and men who are 
already in law enforcement and may already have those skills?
    Mr. Hagin. I believe in the previous hiring practices over 
the last few years that that is not the case. They were hiring 
off of USA Jobs and----
    Mr. Gowdy. Why not hire ex-military? I know there is an age 
cutoff, but why not hire ex-military, State and local law 
enforcement, a field that already has that basic investigatory 
skill package that you are looking for instead of hiring 
somebody who was an accounting major that just decided they 
want to join Federal law enforcement?
    Mr. Perrelli. I think that you are likely to see, 
Congressman, with the change in hiring process a shift to 
probably drawing more from State and local law enforcement and 
ex-military, which I think has been more common to the Service 
prior to the period when we think their hiring practices really 
became problematic.
    Mr. Gowdy. Well, you know--and I am sure the four of you 
know this. The U.S. Marshals have the broadest jurisdiction of 
any Federal law enforcement agency. They just don't use it. 
They search for fugitives. They provide security in the 
courtroom. They provide security for courthouses. But they have 
very, very broad jurisdiction, they just don't use it. They 
have become experts in a very--in a narrower field.
    I loved all of my years working with Secret Service. I 
thought they were really good on the currency and the 
counterfeiting cases. I just never understood how those two 
skill sets go together. Searching for missing persons and doing 
personal protection, I see how those go together. But 
investigating the use of an inkjet printer to print fake $100 
bills and providing protection for the President or Vice 
President, I just don't see how those skill sets go together. 
But it seems to me that you all are already on top of that.
    One question that arose with the former Director that I am 
not sure I got a good answer to. You mentioned training. I 
don't think the failure to secure and search a crime scene is a 
training issue. And I say that, because I believe the 
housekeeper, who did not train at either Glynco or Quantico, 
knew enough to alert someone, you might want to come up and 
search this part of the White House. I just--if you have to be 
trained to secure and search a potential crime scene, you are 
probably not in the right line of work. So what explanation 
were you all, if any, able to uncover for how they missed that?
    Mr. Filip. Congressman, I think you are putting your finger 
on something very important, and it also relates to the man who 
got inside the front door of the White House with a knife. 
There aren't adequate explanations for failure to secure that 
evidence of the shooting up in the residence. Nor--you can talk 
about things forever and you can talk about training forever. 
If there were never another hour of training for 10 years, no 
one should get in the front door of the White House again.
    We are not here to defend either of those, period. Those 
were both grave mistakes, and neither one of them should have 
happened.
    Mr. Gowdy. Well, I appreciate your candor, and I appreciate 
the work that you did. And the Secret Service has a very rich, 
deep, good reputation and history. And I would like to see it 
get back to the days where I remember it. It is a very 
important agency. We have to get it right.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman. Recognize the 
gentleman from Alabama, Mr. Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    And Ms. Gray, you mentioned the excessive amounts of 
overtime. And it has been mentioned several times in this 
hearing. Do you have an idea of how many overtime hours have 
been worked annually?
    Mr. Perrelli. So I think when we looked at--so with respect 
to the agent population, we just don't think there are actually 
accurate records for that because what we found was agents 
routinely enter 8 hours and 2 hours of a law enforcement 
availability pay time, even when they are working 17, 18, 20 
hours. So that, I think, we--we think the accurate records for 
that are difficult to find.
    With respect----
    Mr. Palmer. Let me ask you this: If the agents are not 
logging the hours they are working, does that mean they are 
uncompensated for overtime?
    Mr. Perrelli. Well, they are getting paid for their 8 hours 
and their LEA pay. You know, I think--you know, frankly, we 
want a high-performing culture. We don't want a group of 
individuals in the Secret Service punching the clock. I don't 
think they view it as uncompensated time because I think--but 
certainly they are working, you know, extraordinarily long 
hours, well beyond what anybody has measured.
    Mr. Palmer. I don't think I am communicating this 
correctly. What I am trying to find out is, within your budget 
process, you have so much budgeted for salaries and benefits 
and certain professional--certain professions when you work 
beyond the 8--not beyond 8 hours, but beyond 40 hours, you are 
compensated for your overtime. Some is time and a half, some is 
straight time. That is what I am trying to find out.
    Mr. Perrelli. So in the uniform division, they are 
compensated for overtime. And what we found in the uniform 
division side is that there were wide variations. Some people 
were working extraordinary amounts of overtime. I think the--
the precise number I don't have right at my fingertips, but I 
think it is 58 hours on average, but again with wide variation.
    Mr. Palmer. All right. That is almost 50 percent more than 
what they normally should work. And obviously that has 
implications for stamina over time. If you are working 
consistent hours, that--working those kind of hours on a 
consistent basis. It also, though, has a budget impact, because 
generally you shouldn't be budgeting personnel to work those 
kind of hours.
    So what I want to know is that we are paying for this. Does 
it make sense to be paying for overtime when we could convert 
what we are spending on that to new personnel?
    Mr. Perrelli. And I do think that is a finding of our 
report, is that rather than bring on new personnel and train 
them up and get them ready, what happened was the need kept 
increasing, the personnel on board did not keep increasing, and 
they essentially substituted overtime for bringing on new 
personnel. So again, you are looking at the chairman's chart. 
If you see the gap in hiring and the number of classes that go 
through, that is made up through overtime. And we think a less 
tired work force would, you know--some of that obviously would 
be compensated--and bringing on new people, having a less tired 
work force, some of that would be compensated by less overtime.
    Mr. Palmer. Well, even on the training side, you could have 
them trained up, but if you are working that many hours you are 
reducing their effectiveness. But the thing that gets me is, it 
is a management issue, is that you are spending money on 
overtime, and someone is making a decision to pay overtime 
rather than bring in these new hires, which would reduce the 
demand on your personnel. That just doesn't make sense.
    Mr. Perrelli. We agree with that.
    Mr. Palmer. The clock changed on me. I thought for a moment 
there that I was out of time.
    The thing that keeps coming up--and from some of the other 
testimony that I have heard--is it seems to me there is an 
overall decline in morale in the Service. And I commend you for 
the work you are doing. I commend--I don't know how much input 
you had into the report that we read on the recommendations for 
reforms, but I wholeheartedly support what is in the report, 
particularly bringing in someone from the outside. I am a big 
believer in bringing people in from the outside into a huge 
organization because they can see things that nobody else 
inside sees. You develop a culture over time where you just 
start to miss the obvious.
    So I want to encourage whoever needs to be encouraged to 
pursue someone from outside the agency, at least in a 
transitional-type setting, to be able to come in and make the 
changes that will bring the agency back up to the standard of 
excellence that you have enjoyed for years and years and that 
we all expect.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes.
    Mr. Grothman. Thank you very much.
    Chairman Chaffetz. Sorry. Hit the talk button there, if you 
could please. Than you.
    Mr. Grothman. OK. Very good. I have got a couple of 
questions for you folks. First of all, thanks for spending so 
much time with us today. I really appreciate you doing that.
    Obviously, there is a lot of discussion about who the new 
Director is going to be. There is a feeling that he ought to 
come from outside the agency now. I just want your opinions. 
Why do you believe the next Director should come from outside 
the agency?
    Mr. Filip. And maybe we all should speak to that, and I 
will take the first crack at it, Mr. Congressman. We think that 
all things equal, it is easier for an outsider to achieve some 
of the things that are important, taking a fresh look at 
priorities, having consistent discipline, making tough 
personnel decisions, bringing in outside folks in the H.R., in 
the congressional relations, budgeting areas perhaps as 
appropriate. So again all things equal, it is easier for an 
outsider to come in and do that. The FBI does that 
historically. The CIA does that historically.
    Again, just to underscore this, obviously that is the 
President's choice ultimately. And sometimes all things aren't 
equal in the world in that, you know, someone from the inside 
brings in an outside leadership team with him or her, and they 
are the right person at the right time. We will support whoever 
the President chooses to the extent we can be supportive of 
them. But all things equal, we do think an outsider would 
probably be able to do some of those other things easier.
    Ms. Gray. Yes. I would agree with that. The only other 
thing I would add is that, you know, our report goes into 
detail in some of the budget and administrative functions of 
the organization that really need to have a priority in order 
to support the protective mission of the agency. And I think we 
think an outside Director can really bring a fresh perspective 
to that.
    Mr. Perrelli. I would echo that. And, you know, we--one of 
the opportunities that we had as a panel was to talk broadly 
across the Federal Government in areas of technology and 
management. And we think there is a lot of talent that could 
help the Service. And we think that while, you know, certainly 
promoting from within for certain positions is important, we 
also think that there should be more people at senior levels 
who come from outside the Service with different backgrounds.
    Mr. Hagin. And having someone who has the experience at 
changing an organization and being able to aggressively drive 
the changes that are needed here to, you know, both the use of 
technology, the management of technology, the human resource 
and budget issues really need a change agent.
    There are a lot of really great people in the Secret 
Service. And I think that we met and talked with quite a few 
people who we feel that with, you know, some further experience 
and education in terms of management training could be great 
directors of the Service going forward. But at this point in 
their history, they need somebody who can aggressively drive 
change, and our view was that that person best come from the 
outside.
    Mr. Grothman. That is kind of illuminating, because usually 
when you deal in government people like--you know, they are 
afraid of somebody from the outside. But it says a lot for you 
guys. You guys would not--you feel that somebody other than 
Acting Director Clancy, kind of that outside view, would be an 
improvement?
    Mr. Filip. Well, we did not do any sort of personnel review 
of Acting Director Clancy. He has done a great job and he has 
been a great public servant. And we just didn't do a review to 
that effect.
    Again, all things equal, there is certain parts of this job 
that are easier, we thought, on average for an outsider. But I 
think we all have great respect for him.
    Mr. Grothman. OK. One other question, because we are 
running out of time here. Right now you guys fly in agents to 
supplement the uniformed division at the White House. And 
apparently that is very expensive. Could you comment on that 
practice?
    Mr. Perrelli. Well, I think--and it does reflect an effort 
by the Service to address, you know, a short-term, trying to 
ensure they have adequate manpower at the White House. But I 
think similar to the questions we talked about about overtime, 
that is not a cost effective and long-term strategy for dealing 
with these issues. That is why we recommend them bringing on 
more people, permanent hires, the 200 additional uniformed 
division, the 85 additional special agents, because we think 
that that is a better way to do this than more expensive ways 
to do that that have--they are really only for short-term.
    Mr. Grothman. OK. So you feel we are spending money 
unnecessarily by doing things this way?
    Mr. Perrelli. I think that is right.
    Mr. Grothman. OK. Thanks very much, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    Recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Again, I want to thank you all for all you 
have done. I just want to zero in on something that we have not 
spent a lot of time on. When I was the chairman of the 
Subcommittee over Maritime Transportation and the Coast Guard, 
under the Transportation Committee, we had a situation where 
the Coast Guard was purchasing boats that didn't float, 
literally. Literally. And what we discovered was that the Coast 
Guard did not--the way they constructed their contracts and did 
their procurement, the major problem is they didn't have people 
in-house who knew about procurement, which is incredible. And 
we literally lost hundreds of millions of dollars.
    And that takes me back to the piece where you all talk 
about maybe we need to have people who are experts in certain 
areas to do that. And then I was listening to what the chairman 
was reading--I guess that was budget language. And I asked 
myself, well, how do those things happen? You know, an 
accounting-type person speaks accounting. And so I was 
wondering, how significant is that? And it sounds like what 
they do is they take agents and put them in these positions 
that they may not--I don't want to say may not be qualified 
for. But there are probably people who have trained in those 
expertise that would be better in that. And can you tell me the 
significance of that? And have I got that right?
    Mr. Filip. You do, sir. I think the significance of it is 
real. I guess the way I would put it, I think the nicest way to 
put it is that in life you try to put people in a position 
where they have the best chance of succeeding, both for 
themselves and for the organization. And if you have somebody 
who is an A-plus protective person or law enforcement person, 
they may not be an A-plus person at media relations or 
congressional relations, any more than any of us would be good 
at being emergency room technicians or some such thing. We all 
have our strengths and weaknesses.
    What the FBI has done under--did under Director Mueller--
and it seemed to be a material improvement in their endeavors, 
was to try to recruit--and it is not always easy. It is hard to 
get people to leave their positions, to move, things of that 
sort. But to put a real focus on recruiting experts who would 
come into the Secret Service. They were attracted--in that 
case, the Bureau. They were attracted to the mission. It was a 
way to engage in public service. It was a way to make a 
difference in America and be involved in human relations, be 
involved in IT efforts for the Bureau. And they improved 
things.
    The Bureau has a well-publicized history where it wasn't 
that great at IT for a while. They had a lot of expensive 
challenges and frankly failures, and they got better. And so we 
think, respectfully again, that this is an area that would 
merit serious consideration, because bringing in senior-level 
people in human resources, in budgeting, in technology, 
congressional relations could really move the needle for the 
whole organization, and it would be something that would be 
great public service for the senior folks who came in.
    Mr. Hagin. To be fair, the Service does employ experts in 
human resources, technology, and others areas. They do not ever 
occupy the senior-most spot. And when you are trying to again, 
drive change, it is hard when the top guy--top person holding 
that responsibility is not the expert.
    Mr. Perrelli. OK. I think it--and I just echo. I also think 
it is--you need to bring in those experts and you need to give 
them a seat at the leadership table.
    Mr. Cummings. Last but not least, we talk about morale. One 
of the things that we find in hiring people even here on the 
Hill, people like to know that they have a chance to move up in 
an organization. I guess it--the military is sort of like that, 
I guess.
    The people that you talk to, the agents, did they say that 
they would prefer somebody from the outside? I am just curious.
    Mr. Perrelli. We got a mix of views on that. And again, I 
think very, very telling that there were a number of 
individuals who talked to us who said, you know, that, you 
know, we really needed--that would be a sign of change and that 
we think that as an organization we would benefit from that. So 
we did get a mix of views on that.
    There is--you know, within the agent population, I think, 
as we talk about in the report, there were questions about 
promotions and whether--was this one being fairly applied and 
were promotions being fairly applied? And I think that is 
something that a new Director has got to regain the confidence 
of the work force on.
    On the uniform division side, over time there have been 
eras in the Secret Service where it was possible to move up 
from the uniform division up through the special agent ranks, 
even to the Director of the Service. What we see, at least 
today, is a view of the uniform division that that pathway 
isn't really open. And I think a new Director has got to think 
about opening that up again.
    Mr. Cummings. As I close, let me just say this: That we--
that the chairman and I have been working very hard on this 
issue. And your report and your work, without a doubt, has been 
a guiding light. And I cannot tell you how much we appreciate 
it. It has allowed us to be able to delve into some things that 
we probably would not even have known about. And the way you--
and your recommendations, all of that will help us 
tremendously.
    And I think your report serves as an example of where, when 
we have crises like this, and I do consider it a crisis, that 
it is the kind of thing we probably need to start with so that 
we could then delve even deeper. So again, I want to thank you. 
And I want you to know that, you know, I think what you have 
done will make the Secret Service a much stronger organization 
and, as someone said, restore the honor that we have known for 
many, many years. Thank you.
    Chairman Chaffetz. Thank the gentleman. I have a couple 
just procedural questions for you, and then we will wrap up.
    And let me first highlight how much we appreciate Homeland 
Security Secretary Johnson, Mr. Mayorkas, others who made this 
a priority and made it happen and were smart enough to engage 
you all in putting this together, because it is a first-rate 
panel. And we appreciate the depth in which you were able to 
get information. And the report is so valuable to us. I can't 
thank you enough for your time.
    What types of documents, how many--can you give me a sense 
of the documents that you were able to review, the size, the 
quantity, what types of documents?
    Mr. Perrelli. Thousands of pages of documents. Everything 
from, you know, prior reports, sort of of the kind--you know, 
in the 1990's, for example, there was the plane that went 
down----
    Chairman Chaffetz. Right.
    Mr. Perrelli [continuing]. In the White House property. So 
there were a series of reports that came out of that. But as 
well as lots of budgetary documents, certainly, you know, 
manuals about everything from training to how to undertake 
certain operational activities. So I think a pretty wide range 
of information. Certainly with respect to our classified 
report, we give details on specific classified documents as 
part of this report.
    Chairman Chaffetz. And how were they produced to you? On 
paper? Electronically?
    Mr. Perrelli. I think both.
    Chairman Chaffetz. And how long did it take from the time 
you made a request til you actually got the documents?
    Mr. Perrelli. I think that we got terrific response from 
the Service when we asked for things. And so I think we were 
very happy with the responsiveness, both of the documents. And, 
frankly, folks came to us with a lot of candor, you know, and 
gave us their unvarnished view.
    Chairman Chaffetz. So if you were to ask for documents, how 
long would that--how long did that take to get them back to 
you?
    Mr. Perrelli. I would probably have to ask our staff to 
talk about timeframes, because I probably wasn't as focused on 
them. I am not sure any of the panel members were.
    Chairman Chaffetz. I am just looking for a generality. You 
were--you started your work. Day one was----
    Mr. Perrelli. We were brought on board at the end of 
October and then we worked through December 15th.
    Chairman Chaffetz. Yes. That is an amazing amount of time. 
Did the Secret Service ever complain about giving you these 
documents?
    Mr. Filip. No, sir.
    Chairman Chaffetz. Any challenges with getting these 
documents? Any personnel issues that they cited?
    Mr. Perrelli. No. I think--as I think we indicated, I think 
one of the challenges was trying to get the kind of budget----
    Chairman Chaffetz. Right.
    Mr. Perrelli [continuing]. The kind of resource documents 
with respect to evaluating some of the staffing issues that we 
were concerned about. So, as I think we noted, trying to get 
that information was challenging and I think, in no small part, 
because I don't think they have it in a form that is--you know, 
would be sort of useful to use. And so I think that--you know, 
I would identify that as a challenge that we had.
    Chairman Chaffetz. The budget?
    Mr. Perrelli. Those documents, because I think--or that 
information. I think more of it as information than documents. 
We wanted to make some, you know, even more specific 
recommendations about the appropriate size of the Service. And 
because it was difficult to get information about manpower 
usage and about particular staffing, you know, as I think I 
indicated to one member, you know, we were able to assess from 
the bottom up what you would need to bring the training level 
up. But it was much more difficult to assess if you wanted to 
bring everybody's hours down to a reasonable level, what would 
that take?
    Chairman Chaffetz. Right.
    Mr. Perrelli. And we weren't able to do that.
    Chairman Chaffetz. Again, on behalf of this committee, we 
want to thank you for your good work. You put a lot of time and 
effort in it. We appreciate you being here today. You made 
quite a sacrifice, but it is truly valuable. I think the 
Service is listening to you, and I think Homeland Security is 
listening to you. Certainly we are. And I hope that we find 
that, as time goes on, that all of these recommendations are 
implemented in their fullest. So we thank you again for your 
participation today.
    Sorry. Mr. Cummings?
    Mr. Cummings. This is for our own sake, Mr. Chairman. Mr. 
Filip?
    Mr. Filip. Yes, sir.
    Mr. Cummings. You said something a minute ago that--you 
said--you were talking about--you were answering a question, 
and you said--you were talking about the President making a 
selection. But then you went on to say, ``We could support 
that.'' I mean, what does that mean? In other--not necessarily 
that particular question.
    So, I mean, what do you see as you all's role now? That is 
what I am trying to get to.
    Mr. Filip. Yes, sir.
    Mr. Cummings. Yes.
    Mr. Filip. I don't mean to sort of arrogate our expertise 
or anything, or elevate it unnecessarily, but we did put a lot 
of time into it. Our staffs put a lot of time into it. We hope 
that folks think that we generated some insights that are 
useful. Whoever gets picked to be the next Director, if it 
would be useful for them to meet with us or their chief of 
staff or whoever it is, so long as it is OK under the rules of 
appointment and all that, I can speak with great confidence for 
everybody involved that we would be happy to try to be 
supportive and useful to them in whatever role they would find 
useful.
    Mr. Cummings. Was it your understanding, when you were 
appointed, that that would be part of it or is that something 
that you all are basically saying we are willing to do? Are you 
following me?
    Mr. Filip. I think we are just willing to do it. To be 
honest, sir, there is all sorts of rules and bureaucracy about 
how many days you can serve and all this and that. And, to be 
honest, I don't really know how that all works out. I think we 
are just saying, if we can do it consistent with the 
regulations and the rules and stuff--we have developed a great 
respect for the Secret Service in this process, and obviously 
this is an issue that, you know, anybody who cares about the 
country, and we all truly do, in the most bipartisan way that 
you all have embodied, can, you know, feel very proud to have 
any small contribution toward, and if we can make any further 
small contribution, we would be proud to do it.
    Mr. Cummings. Well, that makes me quadruple my thanks. You 
know, I am serious that you would do your duty and then say 
that we--you know, we are willing to followup to help make this 
organization the very best that it can be. And I think that 
this is what America is all about. This is what--you all are 
what make this country the great country that it is. And I 
don't say that lightly. And I really appreciate it, and I know 
that our committee does, too.
    Chairman Chaffetz. Again, we thank you. We thank your 
staff. We appreciate the great work that was done. This 
committee stands adjourned.
    [Whereupon, at 12:35p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
